<html>
<title> - U.S. POLICY TOWARDS THE ISLAMIC REPUBLIC OF IRAN</title>
<body><pre>[Senate Hearing 111-746]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-746
 
            U.S. POLICY TOWARDS THE ISLAMIC REPUBLIC OF IRAN

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 14, 2010

                               __________

         Printed for the use of the Committee on Armed Services



                  U.S. GOVERNMENT PRINTING OFFICE
62-667                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7017001f301305030418151c005e131f1d5e">[email&#160;protected]</a>  


  

                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

ROBERT C. BYRD, West Virginia        JOHN McCAIN, Arizona
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SAXBY CHAMBLISS, Georgia
BILL NELSON, Florida                 LINDSEY GRAHAM, South Carolina
E. BENJAMIN NELSON, Nebraska         JOHN THUNE, South Dakota
EVAN BAYH, Indiana                   ROGER F. WICKER, Mississippi
JIM WEBB, Virginia                   GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           SCOTT P. BROWN, Massachusetts
MARK UDALL, Colorado                 RICHARD BURR, North Carolina
KAY R. HAGAN, North Carolina         DAVID VITTER, Louisiana
MARK BEGICH, Alaska                  SUSAN M. COLLINS, Maine
ROLAND W. BURRIS, Illinois
JEFF BINGAMAN, New Mexico
EDWARD E. KAUFMAN, Delaware

                   Richard D. DeBobes, Staff Director

               Joseph W. Bowab, Republican Staff Director

                                  (ii)

  




                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

            U.S. Policy Towards the Islamic Republic of Iran

                             april 14, 2010

                                                                   Page

Flournoy, Hon. Michele A., Under Secretary of Defense for Policy.     6
Burns, Hon. William J., Under Secretary of State for Political 
  Affairs........................................................    10
Cartwright, Gen. James E. USMC, Vice Chairman of the Joint Chiefs 
  of Staff.......................................................    14
Burgess, LTG Ronald L., USA, Director of the Defense Intelligence 
  Agency.........................................................    15

                                 (iii)


            U.S. POLICY TOWARDS THE ISLAMIC REPUBLIC OF IRAN

                              ----------                              


                       WEDNESDAY, APRIL 14, 2010

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:32 a.m. in 
room SR-253, Russell Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Akaka, E. Benjamin Nelson, Udall, Hagan, Begich, Burris, 
Kaufman, McCain, Chambliss, Thune, Wicker, LeMieux, Brown, and 
Collins.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Madelyn R. Creedon, 
counsel; Jessica L. Kingston, research assistant; Michael J. 
Kuiken, professional staff member; William G.P. Monahan, 
counsel; and Russell L. Shaffer, counsel.
    Minority staff members present: Joseph W. Bowab, Republican 
staff director; Christian D. Brose, professional staff member; 
and Daniel A. Lerner, professional staff member.
    Staff assistants present: Paul J. Hubbard, Christine G. 
Lang, and Breon N. Wells.
    Committee members' assistants present: James Tuite, 
assistant to Senator Byrd; Vance Serchuk, assistant to Senator 
Lieberman; Carolyn Chuhta, assistant to Senator Reed; Nick 
Ikeda, assistant to Senator Akaka; Greta Lundeberg, assistant 
to Senator Bill Nelson; Ann Premer, assistant to Senator Ben 
Nelson; Patrick Hayes, assistant to Senator Bayh; Gordon 
Peterson, assistant to Senator Webb; Tressa Guenov, assistant 
to Senator McCaskill; Jennifer Barrett, assistant to Senator 
Udall; Lindsay Kavanaugh, assistant to Senator Begich; 
Roosevelt Barfield, assistant to Senator Burris; Anthony 
Lazarski, assistant to Senator Inhofe; Sandra Luff, assistant 
to Senator Sessions; Clyde Taylor IV, assistant to Senator 
Chambliss; Jason Van Beek, assistant to Senator Thune; Brian 
Walsh, assistant to Senator LeMieux; Scott M. Clendaniel, 
assistant to Senator Brown; Kevin Kane, assistant to Senator 
Burr; and Ryan Kaldahl, assistant to Senator Collins.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    The committee today will hear testimony from Michele 
Flournoy, Under Secretary of Defense for Policy; Bill Burns, 
Under Secretary of State for Political Affairs; General James 
Cartwright, Vice Chairman of the Joint Chiefs of Staff; and 
Lieutenant General Ronald Burgess, Director of the Defense 
Intelligence Agency (DIA), on one of the most difficult and 
important security challenges of our time, the Islamic Republic 
of Iran. Instead of acting in a way to become a respected 
member of the community of nations, Iran's leaders disregard 
international norms, abuse the rights of their own people, 
support terrorist groups, and threaten regional and global 
stability. Iran's refusal to be open and transparent about its 
nuclear program jeopardizes the security of its neighbors and 
other countries in the Middle East.
    There is a strong, bipartisan determination on this 
committee and in this Congress to do all that we can to stop 
Iran from acquiring nuclear weapons. President Obama has 
focused considerable effort towards that goal because in his 
own words, the long-term consequences of a nuclear-armed Iran 
are unacceptable, and he said that he doesn't, ``take any 
options off the table with respect to Iran.'' I support the 
view that, if Iran pursues a weapon, all options including 
military options should be on the table. The possession of a 
nuclear weapon by Iran would be a threat to the region and to 
world security.
    The administration has sought, through a variety of means, 
to engage with the Government of Iran to make clear the 
benefits available to them and its people if it complies with 
international norms. It also makes clear the consequences if it 
seeks nuclear weapons. Through five United Nations (U.N.) 
Security Council resolutions and multiple U.S. laws and 
executive orders, the United States has sought to work both 
multilaterally and unilaterally to persuade Iran to abide by 
its obligations under the Nuclear Nonproliferation Treaty (NPT) 
and its safeguards agreements with the International Atomic 
Energy Agency (IAEA).
    We have sought and continue to seek the support of the 
international community including Russia, China, and other 
countries that regularly trade with Iran. Concerted, 
coordinated international, diplomatic, and economic efforts 
will hopefully make Iran understand in practical terms the 
consequences of its actions. One of the issues that we will 
discuss today is what additional diplomatic and economic 
efforts could be effective in persuading Iran to forgo its 
uranium enrichment program and meet all of its obligation to 
the IAEA and the international community.
    Iran's external activities in the region are also deeply 
troubling. It continues to provide material support to violent 
elements in both Iraq and Afghanistan that are responsible for 
the loss of American servicemembers' lives and those of 
countless Afghans and Iraqis. Iran also provides financial 
assistance, munitions, and other support to the terrorist 
organization Hezbollah in Lebanon and Hamas and other terrorist 
extremist elements in Gaza.
    While neglecting its international obligations and playing 
a negative role in the region, Iran has also engaged in a 
deeply troubling pattern of behavior targeting its own 
citizens. In the wake of elections last June that were widely 
considered fraudulent, Iranians by the hundreds of thousands 
poured into the streets in nonviolent protest. The regime 
responded with brutality.
    Internal security forces and government-affiliated groups 
set upon protesters with guns and clubs. There was widespread 
abuse and torture of Iranians detained without legitimate 
charges. Prominent voices for reform have been silenced, often 
brutally.
    Illegitimate show trials aimed at intimidation, not 
justice, have resulted in harsh sentences including executions. 
The regime has cracked down on freedom of expression and 
interfered with the use of cellular, Internet, and other means 
of communication to block the free flow of information. This 
campaign of violence against its own people has further 
solidified an international consensus that Iranian leaders must 
not only fulfill their obligations to the global community but 
also respect the human and civil rights of their citizens.
    The committee will hear today from representatives of the 
Department of Defense (DOD), the Department of State (DOS), and 
the Intelligence Community (IC). There are several issues on 
which the committee is eager to learn more:

        <bullet> An updated assessment on Iran's intentions and 
        capabilities regarding nuclear weapons;
        <bullet> The status of ongoing diplomatic efforts aimed 
        at securing tough, international sanctions against 
        Iran;
        <bullet> Iran's support to extremist elements in the 
        region;
        <bullet> Iran's campaign to stifle internal dissent and 
        the free flow of information; and
        <bullet> U.S. military contingency planning regarding 
        Iran.

    A closed session will follow this morning's public hearing. 
We thank the witnesses for their service and for the valuable 
information that they're going to provide to the committee as 
we consider these important issues. All of the witnesses' 
statements that have been submitted will be included in the 
record.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman. I also thank our 
distinguished witnesses for joining us here this morning and 
for their many years of service to our country.
    As the chairman has pointed out, and we all know, we meet 
here today to discuss U.S. policy toward Iran, which at present 
is focused foremost on the imperative of preventing that 
government from acquiring a nuclear weapons capability. The 
reasons for this are very clear. However, even as we focus on 
Iran's nuclear ambitions, we must not lose sight of the Iranian 
regime's broader pattern of threatening behavior.
    This is a government that trains, equips, and funds 
extremist groups that are violently subverting many of Iran's 
neighbors. This is a government that is systematically 
violating the human rights of Iran's people. This is a 
government that is already working aggressively to overturn the 
balance of power in the Middle East. These, among other 
reasons, are precisely why Iran's rulers cannot be allowed to 
obtain nuclear weapons.
    The question we are here to answer is: how do we stop one 
of the world's most dangerous regimes from acquiring the 
world's most dangerous weapons? I never thought a policy of 
engagement with Iran's rulers would succeed. But I understand 
why the President pursued it.
    Now after Iran's persistent intransigence, it is long past 
the time to put teeth into our policy. The administration 
declared last year that Iran would face consequences by 
September 2009. Then, that deadline slipped to the end of the 
year. Now it's April 2010. Iran still has not faced any 
consequences for its actions. This delay has harmed U.S. 
credibility.
    Clearly, we and our partners will need to impose our own 
sanctions on Iran, above and beyond what is ultimately 
authorized by a new UN Security Council resolution. We should 
start immediately with the sanctions legislation that is now 
before Congress. The record of the past year is discouraging.
    It's difficult to dispute that Iran is closer to possessing 
a nuclear weapons capability today than it was a year ago. If 
we remain on our current course, Iran will likely achieve a 
nuclear weapons capability. In short, over the past year, the 
balance of power in the Middle East has been shifting in favor 
of our enemies. We see the latest evidence of that today in 
reports that the Syrian government has transferred long-range 
Scud missiles to Hezbollah. This is a dramatically dangerous 
and destabilizing action.
    Nevertheless, we already hear some assert that we can live 
with a nuclear Iran. This idea rests on a host of assumptions 
that are highly questionable.
    To start, will the old rules of two-dimensional deterrence 
apply to a volatile region with multiple nuclear powers and 
possibly less rational actors?
    How would Iran's possession of a nuclear weapons capability 
embolden its support for violent groups currently engaged in 
terrorism, assassination, and subversion in the Middle East?
    Would the United States assume greater burdens of extended 
deterrence to prevent a cascade of proliferation?
    Could we assume these responsibilities as we further reduce 
our nuclear arsenal?
    Perhaps most importantly, would a U.S. policy of containing 
or deterring a nuclear Iran really be credible if it is backed 
by the same government that would be tolerating what it had 
formally insisted was intolerable?
    I hope our witnesses can help us to answer these critical 
questions today.
    Ultimately, we must remember one thing above all others. 
The question of whether the Iranian regime becomes a nuclear 
weapons power is less a question of capabilities than it is a 
test of wills, both Iran's and certainly ours. Iran is 
economically weak. It is militarily weak, as General Petraeus 
has observed. Following last year's election, the Iranian 
regime is more politically compromised than ever. Indeed, I 
said at the time, I believe that when the young woman, Neda 
Agha-Soltran, bled to death in the street last year, it was the 
beginning of the end of the Iranian regime.
    The United States, for all of our challenges, still enjoys 
extraordinary power and influence in the Middle East with 
strong and capable friends and allies. We have the capabilities 
to prevent or delay Iran from getting these weapons if we 
choose to. What actors in the region currently question is our 
judgment and our resolve; whether the United States is more 
determined to stop Iran from acquiring nuclear weapons than the 
Iranian regime is committed to acquiring these weapons.
    We should have no illusions about the catastrophic 
consequences of Iran developing a nuclear weapons capability.
    It would threaten the reliable supply of energy on which 
the global economy depends.
    It would threaten the security of perhaps the very 
existence of close allies.
    It would deal a potentially fatal blow to the NPT regime 
and the rules-based international order that the United States 
and our allies have spent more than 60 years building.
    Worst of all, it would destroy the credibility of U.S. 
power, for it would show that our government could not achieve 
a major, national security goal set forth by three 
administrations of both parties.
    After such a failure, it's hard to imagine that friends and 
enemies alike would put much stock in America's pronouncements. 
Make no mistake, if Iran achieves a nuclear weapons capability, 
it will not be because we couldn't stop it, but because we 
chose not to stop it. The stakes couldn't be higher. I look 
forward to hearing and learning from our witnesses.
    Chairman Levin. Thank you very much, Senator McCain.
    Senator McCain. By the way, Mr. Chairman, I would ask to 
put in the record the various statements from the 
administration over the last year and a half or so that state 
time is running out; the deadline is near. Press Secretary 
Robert Gibbs stated on December 3: ``We're going to have 
consequences if they don't turn around;'' December 20, 2009; 
the list goes on and on of the threats that we have made 
against the Iranians. So far there has been no action.
    George Schultz, my favorite Secretary of State in all the 
world, once said, as his Marine drill instructor told him, 
``never point a gun at somebody unless you're ready to pull the 
trigger.'' We keep pointing the gun. We haven't pulled a single 
trigger yet. It's about time that we did.
    Chairman Levin. Those will be made a part of the record.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Levin. Secretary Flournoy.

   STATEMENT OF HON. MICHELE A. FLOURNOY, UNDER SECRETARY OF 
                       DEFENSE FOR POLICY

    Ms. Flournoy. Chairman Levin, Senator McCain, other 
distinguished members of the committee, I appreciate the 
opportunity to appear before you today to discuss our ongoing 
efforts related to Iran. The Obama administration considers the 
challenges posed by Iran to be one of our top national security 
priorities. To address those challenges, we have developed a 
strategy based on two central objectives.
    First, we are working to prevent Iran from acquiring 
nuclear weapons.
    Second, we are countering Iran's destabilizing activities 
and support for terrorism and extremists in the Middle East and 
around the world.
    The focus of my testimony here today is to lay out for you 
the role of DOD in the strategy. The U.S. military is currently 
in a supporting role, helping quietly to build the confidence 
of our Middle Eastern partners by enhancing regional security 
cooperation, while supporting our broader diplomatic strategy. 
Our regional security cooperation efforts not only reassure 
anxious states in the region, but also send a clear signal to 
Iran that its pursuit of nuclear weapons will lead to its own 
isolation and will ultimately make it less, not more, secure.
    Iran's nuclear and missile programs represent a significant 
threat to Israel. In the face of this threat, we continue our 
effort to ensure Israel's qualitative military edge. We are 
working closely with the Israelis to develop multi-layered 
ballistic missile defenses.
    For a number of years, we have worked with the countries of 
the Arabian Peninsula as well as other partners in the region 
to develop a common architecture that includes bilateral and 
multilateral security initiatives. These include a regional 
network of air and missile defenses, shared early warning 
systems, counterterrorism and counterpiracy programs, programs 
to build partner capacity, and efforts to harden and protect 
our partners' critical infrastructure. In fact, we currently 
have substantial missile defense assets in a number of Gulf 
partner nations.
    Our U.S. Central Command (CENTCOM) maintains a robust 
exercise schedule in the region and a sizable force presence 
which reaffirms our commitment to our partners. We also 
maintain a full schedule of bilateral and multilateral 
engagements going up to the highest levels. In the last 2 
months alone, Secretary Gates and Chairman Mullen have both 
traveled to the region.
    Strengthening the capacities of vulnerable states in the 
region is vital. It's a vital avenue for countering 
destabilizing Iranian activities. We believe we are seeing some 
results.
    In Iraq and Lebanon, for instance, our efforts to develop 
the capacity of security forces and improve governance has 
helped to weaken Iran's proxies. Iraqi security forces have 
increased their capabilities and have showed continued 
willingness to combat terrorist and militant organizations, 
including Iranian backed groups. We also just witnessed a round 
of successful national elections, despite Iranian attempts to 
interfere in the process during the lead up to the vote.
    Non-sectarian nationalist parties and coalitions won a 
significant share of the votes, while the parties Iran most 
preferred performed less well. Iraqis appear to have once again 
rejected candidates whom they saw as too closely aligned with 
Iran and its regional agenda as we also saw during the 2009 
provincial elections. Overall, this suggests the growing sense 
of Iraqi nationalist identity that's becoming a significant 
counterweight to destabilizing Iranian interference.
    In Lebanon, we are working with our partners to strengthen 
national institutions and support efforts to extend government 
authority throughout the country, including into the south. 
Central to this work is the development of Lebanese armed 
forces as a national non-sectarian force that can effectively 
counter terrorism, secure Lebanon's borders, and implement all 
Lebanon related U.N. Security Council resolutions. Effectively 
implementing these resolutions requires ending Iranian support 
for Hezbollah and undermining Hezbollah's terrorist goals and 
militant presence in Southern Lebanon and beyond Lebanon's 
borders. Neither of these is attainable without strong Lebanese 
institutions, effective Lebanese armed forces, and a sovereign, 
stable Lebanese state.
    While we certainly have much further to go towards 
achieving these twin goals of preventing Iranian acquisition of 
nuclear weapons and countering Iran's destabilizing activities 
in support for extremists, we believe that we are making 
progress on both fronts. The administration's diplomatic 
efforts have helped shore up the international consensus needed 
to effectively place pressure on Iran.
    Meanwhile, our efforts in DOD have helped to shore up the 
ability of our regional partners to defend themselves and to 
counter destabilizing activities from Iran. We have also 
reassured our partners that the United States is fully 
committed to their security. Your support on this committee for 
these efforts has been critical over the past year. We look 
forward to continuing to work with you as we move forward.
    Thank you very much.
    [The joint prepared statement of Ms. Flournoy and General 
Cartwright follows:]

JOINT PREPARED STATEMENT BY HON. MICHELE A. FLOURNOY AND GEN. JAMES E. 
                            CARTWRIGHT, USMC

    Chairman Levin, Ranking Member McCain, and members of the 
committee. We appreciate the opportunity to appear before you today to 
discuss our ongoing efforts involving Iran.
    The Obama administration considers the challenges posed by Iran to 
be among the top national security priorities facing the United States. 
To address this concern we have developed a strategy based on two 
central objectives. First, we are working to prevent Iran from 
acquiring nuclear weapons. Second, we are countering Iran's 
destabilizing activities and support for extremists in the Middle East 
and around the world.
    For the past year, the primary thrust of the administration's 
strategy has been focused on diplomacy and, specifically, the pursuit 
of a dual-track strategy of engagement and pressure. Unfortunately, 
despite the President's genuine and extensive efforts at engagement, 
Iran has so far failed to respond constructively. However, this 
approach has been successful in demonstrating to the international 
community that it is Iran and not the United States that is standing in 
the way of dialogue, and it has helped build greater international 
consensus as we use the pressure track to try to bring Iran to the 
negotiating table.
    The focus of our testimony today is to lay out for you the part 
that the Department of Defense plays in the administration's strategy 
towards Iran. The Department's primary focus continues to be enhancing 
regional security cooperation with our Middle Eastern partners. This 
focus not only reassures anxious states in the region, but also sends a 
clear signal to Iran that pursuit of nuclear weapons will lead to its 
own isolation and in the end make it less--not more--secure.
    DOD is also working actively to counter destabilizing Iranian 
activities by strengthening the capacities of vulnerable states in the 
region. In Iraq and Lebanon our efforts to develop the capacity of 
security forces and improve governance have weakened Iran's proxies. 
Meanwhile, we are working closely with the Iraqis on conducting 
counterterrorism operations, sharing intelligence, and interdicting 
arms shipments to counter Iran's influence in Iraq and throughout the 
region.
    Finally, through prudent military planning we continue to refine 
options to protect U.S. and partner interests from Iranian aggression, 
deter Iran's destabilizing behavior, and prepare for contingencies--all 
while reducing the risk of miscalculation.

                        REASSURING OUR PARTNERS

    In other words, for the present, the U.S. military is in a 
supporting role, helping quietly to build confidence with regional 
partners through normal military activity, while supporting the 
diplomatic strategy. Iran's nuclear and missile programs represent a 
significant threat to Israel. In the face of this threat, we continue 
our efforts to ensure Israel's Qualitative Military Edge, and are 
working closely with the Israelis to develop multi-layered ballistic 
missile defenses.
    In the wider region, the cornerstone of our approach is USCENTCOM's 
Regional Security Architecture. For a number of years, we have worked 
with the countries of the Arabian Peninsula, as well as other partners 
in the region, to develop a common architecture that includes bilateral 
and multilateral security initiatives such as a regional network of air 
and ballistic missile defense systems, shared early warning, counter-
terrorism, counter-piracy, building partner capacity, and hardening and 
protecting our partners' critical infrastructure. These efforts have 
gained greater traction with the region's growing concerns about 
Iranian activities. USCENTCOM also maintains a robust exercise schedule 
in the region and a sizeable force posture and presence, which reaffirm 
our commitment to our partners.
    We also maintain a robust schedule of bilateral interactions beyond 
the purely military sphere. Through the Gulf Security Dialogue, the 
State Department and DOD in tandem are strengthening political-military 
relationships in the region and focusing on regional perspectives and 
common security interests while encouraging multilateral cooperation on 
counter-terrorism, counter-proliferation, and the regional 
reintegration of Iraq. We also conduct regular bilateral defense 
engagements during which security challenges of common interest are 
discussed and efforts to address these challenges are synchronized. 
Moreover, senior leader engagements highlight the valued relationships 
and common interests we share with partner nations. In the last 2 
months alone, Secretary Gates, Chairman Mullen, and General Petraeus 
have all traveled to the region.
    Ultimately, all of these defense activities continue to support 
U.S. diplomatic efforts by signaling to our partners the U.S. 
Government commitment to the region's security.

              COUNTERING IRANIAN DESTABILIZING ACTIVITIES

    Beyond reassurance, we are also actively countering Iran's 
destabilizing activities throughout the region. We just witnessed a 
round of successful national elections in Iraq. Nationalist parties and 
coalitions won a significant share of votes while parties Iran most 
preferred performed less well. Early Iranian attempts to dictate the 
quick formation of the new Iraqi Government were rejected and the Iraqi 
public has made clear that they will not accept Iranian interference 
into their internal affairs and candidates whom they see as too closely 
aligned with Iran and its regional agenda. The growing capabilities of 
the Iraqi security forces, as well as their continued willingness to 
combat terrorist and militant organization, including groups backed by 
Iran, is another sign that Iraqi nationalist identity is a significant 
counter to destabilizing Iranian interference.
    These elections are the latest in a series of strategic setbacks 
that Iran has suffered in its efforts to establish dominance over the 
Iraqi political system. Other successes include: the Iraqi-led ``Charge 
of the Knights'' operation in 2008 that drove Iranian-backed militias 
out of Basra; the U.S.-Iraq Security Agreement and Strategic Framework 
Agreement in November 2008 that embody the shared U.S. and Iraqi 
commitment to a long-term partnership between sovereign states; and the 
January 2009 provincial elections in which parties that were seen as 
too closely aligned with Iran suffered significant setbacks.
    Going forward, we expect that Iran's ability to influence Iraqi 
domestic affairs will be constrained by a combination of four trends: 
enhancements in Iraq's security, governance, and economic capacities; 
Iraqi nationalism; recognition among the leading Iraqi political forces 
of the value of a strategic relationship with the United States; and 
progress in reintegrating Iraq into the broader region.
    In Lebanon, we are working with our partners to strengthen national 
institutions and support efforts to extend government authority 
throughout Lebanon. Central to this work is the bolstering of the 
Lebanese Armed Forces as a national, non-sectarian force that can 
effectively counter terrorism, secure Lebanon's border, and implement 
all Lebanon-related United Nations Security Council Resolutions (1559, 
1680, and 1701), and exert government control throughout Lebanon's 
territory. Effectively implementing these resolutions requires ending 
Iranian support for Hezbollah and undermining Hezbollah's terrorist 
goals and militant presence in Southern Lebanon and beyond Lebanon's 
borders. Neither of these is attainable without strong Lebanese 
institutions, effective Lebanese armed forces, and a sovereign, stable 
Lebanese state.
    In Afghanistan, Tehran's influence and activities have not been as 
obtrusive as in Iraq. Indeed, we and Iran share the stated goal of a 
strong, stable, prosperous Afghanistan, but Iran's actions do not 
necessarily match its rhetoric. Iran is playing a double game in 
Afghanistan. It combines rhetorical and material support for the Afghan 
Government with a continuing amount of material support to insurgents 
that impedes U.S. and Allied efforts to stabilize the country. Iran's 
historic, cultural, and economic ties with much of western Afghanistan, 
its religious affinity with Afghanistan's minority groups, and its 
extensive border result in Iran's having a critical stake in 
Afghanistan's future. Tehran generally sees the Taliban as an enemy and 
does not want to see them back in power, but nevertheless has provided 
limited lethal assistance to the Taliban to hedge against increased 
U.S./Western presence on its eastern border. As ISAF troop levels 
increase, and as the Afghan Government expands its capacity, we will be 
better positioned to protect against any substantial challenges from 
Iran in Afghanistan in the near term. However, we recognize that, going 
forward, Iran's interests will continue to play a significant role in 
the regional balance that affects Afghanistan's stability.

                            PRUDENT PLANNING

    It is the Department of Defense's responsibility to plan for all 
contingencies and provide the President a wide range of military 
options should they become necessary. As both the Secretary and the 
Chairman have stated, military options are not preferable. This 
adminstration is committed to a multifaceted diplomatic strategy to 
resolve all our issues with Iran. But as the President has stated we do 
not take any options off the table.

                               CONCLUSION

    Iran is a serious threat to U.S. national security both because of 
its nuclear program and its destabilizing activities across the Middle 
East. The administration remains committed to a diplomatic strategy of 
engagement and pressure. The Department of Defense is doing everything 
it can to support this policy, by reassuring our partners in the 
region, addressing Iranian destabilizing activities, and conducting 
prudent planning.

    Chairman Levin. Thank you very much, Secretary Flournoy.
    Secretary Burns?

 STATEMENT OF HON. WILLIAM J. BURNS, UNDER SECRETARY OF STATE 
                     FOR POLITICAL AFFAIRS

    Ambassador Burns. Thank you very much, Chairman Levin, 
Senator McCain, and distinguished members of the committee. 
Thank you very much for inviting me to appear before you today.
    Iran's defiance of its international obligations poses as 
profound and complicated a challenge as any we face in the 
world today. Iran's leadership continues to expand its nuclear 
program. A nuclear-armed Iran would severely threaten the 
security and stability of a part of the world crucial to our 
interests and to the health of the global economy. It would 
seriously undermine the credibility of the U.N. and other 
international institutions and seriously undercut the nuclear 
nonproliferation regime at precisely the moment we are seeking 
to strengthen it.
    These risks are only reinforced by the wider actions of the 
Iranian leadership, particularly its longstanding support for 
terrorist groups; its opposition to Middle East peace; its 
repugnant rhetoric about Israel, the Holocaust, and so much 
else; its brutal repression of its own citizens; and its 
efforts to choke off the free flow of information, a universal 
right of all Iranians.
    Our policy aims to prevent Iran from developing nuclear 
weapons and to counter its other destabilizing actions. 
President Obama has also made clear, including in his Nowruz 
message last month, that we will stand up for those rights that 
should be universal to all human beings and stand with those 
brave Iranians who seek only to express themselves freely and 
peacefully. We have pursued that policy through a combination 
of tough-minded diplomacy, including both engagement and 
pressure, and active security cooperation with our partners in 
the Gulf and elsewhere.
    We have sought to sharpen the choices before the Iranian 
leadership.
    We have sought to demonstrate what's possible, if Iran 
meets its international obligations and adheres to the same 
responsibilities that apply to other nations.
    We've sought to intensify the costs of continued defiance 
and to show Iran that pursuit of a nuclear weapons program will 
make it less secure, not more secure.
    Last year, we embarked upon an unprecedented effort at 
engagement with Iran. We did so without illusions about whom we 
were dealing with; where the scope of our differences over the 
past 30 years of engagement has been both a test of Iranian 
intentions and an investment in our partnership with the 
growing coalition of countries concerned about Iran's nuclear 
ambitions.
    We sought to create early opportunities for Iran to build 
confidence in its intentions. In Geneva last October, we 
supported, along with Russia and France, a creative proposal by 
the IAEA to provide fuel for the production of medical isotopes 
at the Tehran research reactor that could have produced an 
opening for progress. Unfortunately, Iranian leaders spurned 
that offer. What appeared to be a constructive beginning in 
Geneva was ultimately repudiated by Tehran. Instead, Iran 
pursued a clandestine enrichment facility near Qom; refused to 
continue discussions with the U.N. Security Council Permanent 
Five Members plus Germany (P5+1) about international concerns 
over its nuclear program; provocatively expanded its enrichment 
operations even further in violation of U.N. Security Council 
resolutions; and drew new rebukes from the IAEA in the Director 
General's most recent report.
    Iran's reckless intransigence has left us no choice but to 
employ a second tool of diplomacy, economic and political 
pressure. As the President emphasized in Prague last week, we 
must insist that Iran face consequences because it has 
continually failed to meet its obligations. We cannot and we 
will not tolerate actions that undermine the NPT, risk an arms 
race in a vital region, and threaten the credibility of the 
international community and our collective security.
    Our efforts at engagement have made it much harder for Iran 
to deflect attention from the core of the problem, which is its 
nuclear ambitions and its unwillingness to meet its 
international obligations. It has put us in a much stronger 
position to mobilize effective international pressure. Already 
we have seen evidence of mounting international concern.
    We've seen increases in international cooperation to stop 
arms shipments and financial transactions that aid terrorists, 
threaten Israel, and destabilize the region. We saw last 
November, for the first time in 4 years, the tough new IAEA 
Board of Governors resolution sharply criticizing Iran. We saw 
a strong U.N. General Assembly Iran Human Rights Measure in 
December and a similarly strong European Council declaration 
later that same month.
    Now, we are moving urgently toward a new U.N. Security 
Council Sanctions Resolution. Our purpose is to send a unified 
message of international resolve with a range of concrete 
measures that will affect Iran's strategic calculus. A year 
ago, neither Russia nor China would engage in such an effort 
and much of the rest of the international community was 
drifting on the Iran issue.
    Today, Russia, which was our partner in the Tehran Research 
Reactor Proposal, is also our partner in pursuing a new 
resolution. President Medvedev reaffirmed in Prague last week 
his support for smart, targeted sanctions. President Obama had 
a constructive discussion 2 days ago on the margins of the 
Nuclear Security Summit with President Hu of China, and the 
Chinese Ambassador to the United Nations has joined formal 
negotiations of a new resolution in New York.
    We continue to work closely with Britain, France, and 
Germany, our other partners in the P5+1. We seek the strongest 
possible resolution in the shortest possible time this spring. 
We will seek to use this as a platform to expand upon the 
existing sanctions regime. Equally evident to Iranians are the 
informal expressions of international censure including the 
voluntary departure of longstanding foreign investors and trade 
partners and the increasing isolation of a country that had 
only just begun to emerge from the self-imposed autarky of the 
early post-revolutionary era.
    Neither our formal penalties nor the increasing ostracism 
Iran faces from the world will alter its agenda overnight. But, 
we believe that the mounting weight of political and financial 
pressures on its leadership will have an impact on Tehran. 
Together, with an increasing number of international partners, 
we are absolutely determined to ensure that Iran adheres to the 
same responsibilities that apply to other nations. Too much is 
at stake to accept anything less.
    Thank you.
    [The prepared statement of Ambassador Burns follows:]

           Prepared Statement by Ambassador William J. Burns

    Iran today presents a profound and complicated challenge. In 
defiance of its international obligations, Iran's leadership continues 
to expand and advance the most proliferation sensitive and provocative 
elements of its nuclear program. A nuclear armed Iran would threaten 
the security of our ally Israel, the Persian Gulf and the broader 
Middle East, the credibility of international institutions such as the 
United Nations, and the viability of the nuclear nonproliferation 
regime. The grave risks at stake with Iran's nuclear program are only 
amplified by its other deeply destabilizing policies and its treatment 
of its people. Iran ranks perennially as the world's leading state 
sponsor of terrorism, supporting Hizballah, Hamas, Palestinian Islamic 
Jihad, Iraqi militants, and the Taliban. As the international community 
works to restart a meaningful dialogue between Israel and the 
Palestinians, Iranian leaders foment hatred against Israel. At home, 
the government's brutal crackdown on peaceful protestors who went to 
the streets in the thousands to demand their universal rights has 
outraged the world.
    For all these reasons, Iran represents a paramount priority for 
U.S. foreign policy. President Obama has been clear that Iran must not 
develop nuclear weapons. He has sought to strengthen our diplomatic 
options for dealing with the challenges posed by Iran, and offered 
Tehran a pathway toward resolving the concerns of the international 
community. From his earliest days in office, the President has made 
clear that the United States is prepared to deal with the Islamic 
Republic of Iran on the basis of mutual interest and mutual respect. As 
part of this principled engagement, the United States has been a formal 
party to the P5+1 talks with Iran since April 2009. We have recognized 
Iran's right under the NPT to the peaceful uses of nuclear energy. With 
our partners in the international community, we have demonstrated our 
willingness to negotiate a diplomatic resolution to the deep 
differences between us. We embarked upon this effort to engage with the 
Islamic Republic with no illusions about our prospective interlocutors 
or the scope of our 30-year estrangement.
    Together with our allies and international partners, we sought to 
create opportunities for Iran to build confidence in its nuclear 
intentions. These opportunities included the discussions last October 
in Geneva of the IAEA proposal to provide fresh fuel for the Tehran 
Research Reactor. We offered Iran a follow-on opportunity to meet with 
the P5+1 to discuss these issues further. We also called on Iran to 
grant the IAEA full and immediate access to its formerly undeclared 
enrichment facility near the city of Qom. These were opportunities for 
Iran to demonstrate its good faith and address the concerns of the 
international community. But we cautioned Iran that engagement was not 
sustainable without a constructive response demonstrating Iran's 
serious willingness to address international concerns about its nuclear 
program.
    Unfortunately, Iranian leaders spurned serious negotiations, and 
what appeared to be a constructive beginning in Geneva was ultimately 
repudiated by Tehran. Instead, Iran revealed a clandestine enrichment 
facility near Qom, provocatively continues its enrichment operations in 
violation of UNSC resolutions, and refused to meet again with the P5+1 
to discuss its nuclear program. Iran balked at the key elements of the 
IAEA's TRR proposal. While Iran allowed IAEA inspections of the Qom 
facility, it did not provide all the access the IAEA requested, nor 
answers to the IAEA's questions concerning the nature of the facility 
and Iran's intent in constructing it. Iran also failed to address 
fundamental questions about evidence suggesting it had sought to 
develop a nuclear warhead. These failures drew new rebukes from the 
IAEA in the Director General's most recent report.
    While our overtures did not generate sustained negotiations with 
Iran, they have demonstrated our sincerity in seeking a peaceful 
resolution. As a result of our patient pursuit of direct negotiations--
and the recalcitrance of Iran's response--we now see a broader 
international consensus about the urgency of the Iranian threat and new 
frustration among even some of Iran's friends and trade partners. This 
newfound multilateral understanding strengthens our diplomatic hand as 
we have intensified the second track of our dual-track diplomacy toward 
Tehran--utilizing pressure to convince Tehran to change its course. As 
the President said in Prague just last week, we must insist that Iran 
face consequences because it has continually failed to meet its 
obligations. We cannot, and will not, tolerate actions that undermine 
the NPT, risk an arms race in a vital region, and threaten the 
credibility of the international community and our collective security.
    Already, the heightened concerns of the international community 
have manifested themselves in a variety of ways. They have generated 
increased cooperation on stopping arms shipments and financial 
transactions that aid terrorists, threaten Israel, and destabilize the 
region. This strengthened multilateral cooperation has also produced a 
series of new formal measures, including the critical November 2009 
IAEA Board of Governors resolution, the U.N. General Assembly Iran 
Human Rights measure in December, and the European Council declaration 
on Iran. In this regard, we are moving with a sense of urgency toward a 
new U.N. Security Council Resolution. At the START signing ceremony 
last week in Prague, Russian President Medvedev reaffirmed the need for 
smart sanctions. Formal negotiations among the P5+1 on a new resolution 
also began last week in New York. While the process of getting 
consensus around a new UNSCR is always challenging, we are working 
aggressively to adopt concrete measures that will serve as a platform 
to strengthen and expand upon existing sanctions and target the power 
centers most likely to have an impact on Iran's strategic calculus.
    Concerns about Iran's destabilizing activities are not limited to 
the P5+1 and our European partners. Many governments in the region have 
legitimate fears about Iran's policies and the advancement of its 
nuclear program. Iran's neighbors are working to counter and diminish 
Iran's negative influence. These states support the responsible and 
transparent development of civilian nuclear energy, but have publicly 
declared their opposition to the pursuit of nuclear weapons and 
emphasized their grave concerns about Iran's nuclear intentions. We 
continue to work with these regional partners as they develop 
mechanisms to better manage the political, diplomatic, and security 
challenges Iran poses. In addition, we have launched intensive 
diplomatic outreach efforts to other key states to discuss the need for 
additional pressure to bring Iran back to the negotiating table.
    Equally evident to Iranians are the informal expressions of 
international censure, including the voluntary departure of 
longstanding foreign investors and trade partners, and the growing 
isolation of a country that had only just begun to emerge from the 
self-imposed autarky of the early post-revolutionary era. Neither our 
formal penalties nor the increasing ostracism Iran faces from the world 
will alter its agenda overnight, but we believe that the mounting 
weight of political and financial pressures on its leadership can 
persuade Tehran to reassess its approach to the world.
    Pressure cannot be an end in itself. The threat and implementation 
of sanctions is intended to underscore to Iran's leaders the costs and 
benefits of the alternatives before them. President Obama made clear in 
his Nowruz message last month that we remain committed to meaningful 
engagement. Together with our international partners, we acknowledge 
Iran's right to the peaceful uses of nuclear energy, but we must and we 
will seek to ensure that Iran fulfills the same responsibilities that 
apply to other nations and which it took upon itself freely. For this 
reason, we will continue to press Iranian leaders to take concrete 
steps to reassure the world that its nuclear program is intended for 
peaceful purposes. Our resolve to uphold and strengthen the rules of 
the international system reflects our core commitment to our own vital 
security and to shaping a better future for the world, commitments that 
are shared by our allies and partners.
    Our interests with respect to Iran extend well beyond the nuclear 
issue. As the President said last month in his Nowruz message, our 
responsibility is, and will remain, to stand up for those rights that 
are universal to all human beings. That includes the right to speak 
freely, to assemble without fear, and the right to the equal 
administration of justice. The Iranian Government's use of unwarranted 
arrests, prolonged detentions, and violence against its citizens 
represent outrageous violations of the most fundamental duties of 
government. While this repression has quashed large-scale protests in 
recent months, deep rifts remain evident between the government and 
much of its citizenry, and among the power brokers who have long 
supported the Islamic system. These cleavages wrought by the post-
election turmoil will continue to shape the political future of the 
Islamic Republic in ways that we cannot fully anticipate, and the 
United States will continue to speak out on behalf of those who are 
seeking merely to exercise their universal rights.
    The Iranian Government has also pursued a policy to limit its 
citizens' access to information. In response, the United States 
continues to make available tools that create the space--on the 
Internet, in journalism, and in the arts--where free thought and 
expression can flourish. As part of that effort, the U.S. Government is 
pursuing ways to promote freedom of expression on the Internet and 
through other connection technologies. We are working around the world 
to help individuals silenced by oppressive governments, and have made 
Internet freedom a priority at the United Nations as well, including it 
as a component in the first resolution we introduced after returning to 
the U.N. Human Rights Council.
    In conclusion, let me note our deep and continuing concern for the 
safety and well being of all American citizens currently detained or 
missing in Iran. We urge the Iranian Government to promptly release 
Shane Bauer, Sarah Shourd, and Josh Fattal, and all other unjustly 
detained American citizens so that they may return to their families. 
We also call upon Iran to use all of its facilities to determine the 
whereabouts and ensure the safe return of Robert Levinson.

    Chairman Levin. Thank you very much, Secretary Burns.
    General Cartwright.

 STATEMENT OF GEN. JAMES E. CARTWRIGHT, USMC, VICE CHAIRMAN OF 
                   THE JOINT CHIEFS OF STAFF

    General Cartwright. Mr. Chairman, my concerns were included 
in Secretary Flournoy's prepared and delivered comments. I will 
await your questions.
    Chairman Levin. Thank you so much, General.
    General Burgess.

   STATEMENT OF LTG RONALD L. BURGESS, USA, DIRECTOR OF THE 
                  DEFENSE INTELLIGENCE AGENCY

    General Burgess. Chairman Levin, Senator McCain, and other 
members of the committee, thank you for this opportunity to 
testify on Iranian military capabilities and intentions. I've 
submitted my prepared statement for the record. I would like to 
briefly summarize the main points.
    The Iranian leadership has four strategic objectives: the 
first is regime survival; the second is obtaining a pre-
eminent, regional role; Iran's third strategic objective is to 
have a leading role in the Islamic world and beyond; and 
finally, Iran seeks to become a regional economic, scientific, 
and technological power house.
    Iran seeks to achieve these objectives with an aggressive 
strategy that counters western influence in the region. One 
principle tool employed by Iran is the active sponsorship of 
terrorist and paramilitary groups to serve as a strategic 
deterrent and intimidate and pressure other nations. This 
includes the delivery of lethal aid to select Iraqi Shia 
militants in Iraq and the Taliban in Afghanistan.
    In contrast to Iran's aggressive foreign policy is its 
conventional military posture, which is largely defensive. It 
is intended to protect the regime from external and internal 
threats. While DIA currently assesses that Iran is unlikely to 
initiate a conflict intentionally or launch a preemptive 
attack, it does have the capability to restrict access to the 
Straits of Hormuz with its naval forces temporarily and 
threaten U.S. forces in the region and our regional allies with 
ballistic missiles.
    Iran continues to invest heavily in advanced air defenses 
and the potential acquisition of Russian SA-20 surface-to-air 
missiles is a major part of that effort. Coastal defense cruise 
missiles remain an important layer in Iran's strategy to defend 
the Persian Gulf and the Straits of Hormuz. Iran's 
unconventional military capabilities, which include 
paramilitary forces trained to conduct asymmetric warfare, 
would present a formidable force on Iranian territory. These 
forces would include commando and Special Forces units, smaller 
specially trained teams embedded within the conventional force 
units and selected militia and law enforcement personnel.
    With regard to weapons of mass destruction and ballistic 
missile delivery systems, Iran is developing technological 
capabilities applicable to nuclear weapons. Uranium enrichment 
and heavy water nuclear water reactor activities continue in 
violation of U.N. Security Council resolutions. Iran has gone 
to great lengths to protect its nuclear infrastructure by 
locating facilities in buried, hardened facilities. It also 
seeks to protect them by acquiring sophisticated air defense 
systems.
    Iran is continuing to develop ballistic missiles which 
could be adapted to carry nuclear weapons. Iran claims to have 
an extended range variant of the Shahab-3 missile and a 2,000-
kilometer medium range ballistic missile called the Ashura. 
Beyond the steady growth in its missile and rocket inventories, 
Iran has boosted the lethality and effectiveness of existing 
systems by improving their accuracy and developing new 
submunition payloads.
    In closing, DIA concurs with General Petraeus' testimony 
before this committee last month that the Iranian regime is the 
primary state level threat to stability in the CENTCOM area of 
responsibility. The potential threats posed by Iran and 
evolving trends inside that nation remain a high priority for 
DIA collectors, analysts, and counterintelligence 
professionals. Thank you, sir.
    [The prepared statement of General Burgess follows:]

         Prepared Statement by LTG Ronald L. Burgess, Jr., USA

    Good morning, Chairman Levin, Ranking Member McCain, and members of 
the committee. Thank you for this opportunity to testify regarding 
Iran's military posture, and for your continued support to the 
dedicated men and women of the Defense Intelligence Agency (DIA), many 
of whom are forward-deployed directly supporting our military forces in 
Afghanistan, Iraq, and around the world.

                      IRAN'S STRATEGY AND DOCTRINE

    The strategic objectives of Iran's leadership are first and 
foremost, regime survival; making Iran the preeminent regional power; 
attaining a leading role in the Islamic world and on the international 
stage; and turning Iran into an economic, scientific, and technological 
powerhouse.
    Iranian leadership pursues a security strategy intended to deter an 
attack on its territory and increase its relative power in the region. 
For years, it has promulgated its ``20-Million Man Army'' and 
asymmetric warfare doctrine as deterrents to any would-be invader. Iran 
has also extended its outreach and support to governments and groups 
which oppose U.S. interests and threaten regional security. Diplomacy, 
economic leverage, and active sponsorship of terrorist and paramilitary 
groups are tools Iran uses to implement or further its aggressive 
foreign policy. In particular, Iran uses terrorism to pressure or 
intimidate other countries and more broadly to serve as a strategic 
deterrent.
    Iran's military strategy is designed to defend against external 
threats, particularly from the United States and Israel. Its principles 
of military strategy include deterrence, asymmetrical retaliation, and 
attrition warfare. Iran can conduct limited offensive operations with 
its strategic ballistic missile program and naval forces.

                       IRAN'S REGIONAL INFLUENCE

    Iran's 20-year outlook plan from the year 2005 seeks to make Iran a 
``top regional power''. Among other objectives, its current 5-year plan 
seeks to expand bilateral, regional, and international relations, 
strengthen Iran's ties with friendly states, and enhance its defense 
and deterrent capabilities. Commensurate with that plan, Iran is 
seeking to increase its stature by countering U.S. influence and 
expanding ties with regional actors while advocating Islamic 
solidarity. It also seeks to demonstrate to the world its 
``resistance'' to the west. Iran is attempting to secure influence in 
Iraq and Afghanistan while undermining U.S. efforts by furnishing 
lethal aid to Iraqi Shia militants and Afghan insurgents. It also 
provides weapons, training, and money to Lebanese Hizballah, its 
strategic proxy and partner.
    The Iranian regime uses the Islamic Revolutionary Guard Corps-Quds 
Force (IRGC-QF) to clandestinely exert military, political, and 
economic power to advance Iranian national interests abroad. The Quds 
Force conducts activities globally, including gathering tactical 
intelligence; conducting covert diplomacy; providing training, arms, 
and financial support to surrogate groups and terrorist organizations; 
and facilitating some of Iran's provision of humanitarian and economic 
support to Islamic causes.
    Iran also provides Lebanese Hizballah and Palestinian terrorist 
groups--notably, HAMAS, the Palestinian Islamic Jihad, and the Popular 
Front for the Liberation of Palestine-General Command (PFLP-GC)--with 
funding, weapons, and training to oppose Israel and disrupt prospects 
for Arab-Israeli peace. The Quds Force is Iran's primary vehicle for 
providing materiel and lethal support to Lebanese Hizballah, which Iran 
views as an essential mechanism for advancing its regional policy 
objectives.
    Iran continues to drive a multi-pronged soft power strategy in 
Iraq, including continued support to select Iraqi surrogate groups. The 
Quds Force Ramazan Corps is responsible for carrying out Iran's policy 
in Iraq. To more effectively execute regime policy, the Quds Force 
posts officers in Iran's diplomatic missions throughout Iraq. Both 
outgoing Iranian Ambassador to Iraq, Hassan Kazemi-Qomi, and incoming 
Ambassador, Hassan Danafar, are Quds Force officers.
    Iran also continues to provide money, weapons, and training to 
select Iraqi Shia militants and terrorists despite pledges by senior 
Iranian officials to cease such support. Iran offers strategic and 
operational guidance to militias and terrorist groups to target U.S. 
forces in Iraq. In addition to providing arms and support, the Quds 
Force is responsible for training Iraqi insurgents in Iran, sometimes 
using Lebanese Hizballah instructors. The Quds Force provides 
insurgents with the training, tactics, and technology to conduct 
kidnappings, small unit tactical operations, and employ sophisticated 
improvised explosive devices (IEDs). In addition to weapons and 
support, Iran continues training Iraqi Shia militants in the use of 
IEDs, particularly deadly IEDs known as explosively formed penetrators 
(EFPs), and the counter-measures designed to defeat these weapons.
    Iran continues to influence events in Afghanistan through a multi-
faceted approach involving support for the Karzai government while 
covertly supporting various insurgent and political opposition groups. 
Tehran's support for the Government of Afghanistan is reflected in its 
diplomatic presence and the numerous Iranian nongovernmental 
organizations (NGOs) active in the country. Tehran has also pledged 
over a billion dollars in aid, but has actually paid only small 
fraction of that pledge. Iran has used the threat of repatriating the 
large Afghan refugee population residing in Iran as a lever to 
influence the Government of Afghanistan, especially during the harsh 
winter months. Iranian officials met with President Karzai and his main 
opponent Abdullah Abdullah throughout the presidential election 
campaign, and worked hard to appear as the consensus maker during the 
post election period. Tehran has also leveraged longstanding 
relationships with numerous Afghan leaders including Gulbuddin 
Hekmatyar and Ismail Khan, both of whom lived in Iran for a period of 
time.
    Arms caches uncovered in Afghanistan over the last 3 years 
contained large amounts of Iranian manufactured weapons, including 
107mm rockets, which we assess IRGC-QF delivered to Afghan militants.
    Iran has been involved in Lebanon since the early days of the 
Islamic Republic, seeking to expand ties with the large Shia 
population. The IRGC played an instrumental role in the establishment 
of Lebanese Hizballah and has continued to be vital to the development 
of the organization.

                         IRAN'S MILITARY FORCES

    According to the Constitution of the Islamic Republic, the Supreme 
Leader is commander in chief of the armed forces, which consists of 
three main components: the regular military (sometimes referred to as 
the Artesh); the Islamic Revolutionary Guard Corps (IRGC) or Pasdaran, 
and the Law Enforcement Force (LEF). The regular military and IRGC come 
under the control of the Ministry of Defense and Armed Forces Logistics 
(MODAFL). These forces are responsible for defending Iran's borders and 
providing for internal security. The LEF is formally subordinate to the 
Ministry of Interior, and plays a key role in internal security and 
frontier security. Iran's defense spending as a share of GDP is 
relatively low compared to the rest of the region.
    The Islamic Republic of Iran Ground Force (IRIGF) comprises 
armored, infantry, and commando divisions, as well as several 
independent armor, infantry, airborne, and commando brigades, and 
artillery groups. Additionally, the IRGC Ground Resistance Forces 
(IRGCGRF) includes Provincial Corps, which generally include armor and 
infantry brigades and artillery groups. Each brigade is allocated Basij 
battalions which support brigade combat operations.
    DIA assesses the Islamic Republic of Iran Navy (IRIN) includes some 
18,000 personnel. The IRIN is organized into four naval districts, 
which likely include submarine, missile boat, patrol boat, and 
auxiliary units; naval aviation units and naval riflemen and marine 
commando units. An additional 20,000 personnel comprise the Islamic 
Revolutionary Guard Corps Navy (IRGCN), which also includes missile, 
torpedo, and small patrol boat units, several anti-ship coastal defense 
missile batteries, and naval riflemen and commando units.
    The Islamic Republic of Iran Air Force (IRIAF) is estimated to 
comprise 52,000 personnel, stationed at 10 fighter bases, 19 fighter/
fighter bomber and trainer squadrons, 1 reconnaissance squadron, and 10 
transport/tanker squadrons. While the exact force structure is unclear, 
the Islamic Revolutionary Guard Corps Air Force (IRGCAF) is estimated 
to include 5,000 additional personnel and possess some capability to 
support ground attack missions.
    The IRIAF remains largely dependent on 1970's-era U.S. aircraft 
like the F-4 Phantom II, the F-14A Tomcat, and the F-5E Tiger II. Its 
most advanced fighter is the MiG-29 Fulcrum, and it has managed to keep 
a substantial portion of its fleet of U.S.-supplied aircraft flying. 
While Iran has not procured significant numbers of new aircraft in over 
10 years, it has sought to meet some of its requirements by developing 
an indigenous combat aircraft, most of which is derived from its U.S.-
built F-5A Freedom Fighters and F-5E Tiger IIs. One noteworthy project 
is the twin-tailed Saeqeh (Thunderbolt), of which several examples have 
apparently been built.
    Iran's military exercises and literature make it clear its air 
planners understand the value of airborne early warning and command, 
control, communications, computers, and intelligence systems, airborne 
intelligence, electronic warfare platforms, unmanned aerial vehicles 
(UAVs) and airborne refueling. Iran has an active program and two 
families of reconnaissance, target and lethal UAVs. However, the IRIAF 
has been unable to progress in other areas. For example, the IRIAF's 
lone airborne early warning and control system platform crashed in 
September 2009, killing all seven people on board. Iran is also 
building precision-guided munitions for the IRIAF, but recent large-
scale exercises showed fighters delivering conventional unguided 
munitions.
    The Air Defense Force includes a headquarters element and regional 
air defense sectors. Iran has a small, but growing, number of surface-
air-missile (SAM) sites, and numerous anti-aircraft artillery (AAA) 
sites.
    In 2009 Iran established a separate air defense force under the 
command of Brigadier General Ahmad Miqani, as a fourth force in the 
Artesh. The new service consolidates equipment and personnel under a 
single commander and has authority over both regular and IRGC air 
defense units. Publicly, Iranian officials gave a number of reasons for 
creating an air defense force, including the need to better defend its 
nuclear sites, improve the maneuverability and capability of its air 
defense forces, and consolidating information-gathering and air defense 
forces in a single service. Iran is unlikely to seek to develop a fully 
integrated nationwide air defense system. Instead, it seems to prefer a 
point defense strategy, with its strongest defenses located around key 
strategic centers.
    Tehran continues to invest heavily in advanced air defenses, and 
the potential acquisition of the Russian SA-20 SAM remains a major part 
of its air defense modernization efforts. Iran's procurement of modern 
SAMs with automated command, control, and communications systems will 
be a significant upgrade to existing Iranian air defense capabilities 
and improve its ability to protect senior leadership and key nuclear 
and industrial facilities. Iran acquired modern SA-15 short-range 
surface-to-air missiles in 2007 and has displayed newly acquired and 
indigenously built radar systems at its Holy Defense Week parade.
    Coastal defense cruise missiles (CDCMs) are an important layer in 
Iran's defense of the Persian Gulf and Strait of Hormuz. Iran can 
attack targeted ships with anti-ship cruise missiles (ASCMs) from its 
own shores, islands, and oil platforms using relatively small mobile 
launchers.
    The C801/802 is Iran's primary CDCM, first imported from China in 
1995. It is capable of engaging targets at a range of 6 nautical miles, 
and has greater accuracy, a lower cruising altitude, and a faster set-
up time than the Seersucker missile Iran used during the Iran-Iraq War. 
The C801/802 allows Iran to target any point within the Strait of 
Hormuz and much of the Persian Gulf and the Gulf of Oman. Iran has 
worked with China to develop shorter range missiles, including the 
C701, for deployment in narrow geographic environments.
    Iran can readily deploy its mobile CDCM launchers anywhere along 
its coast. These systems have auto control and radar homing guidance 
systems, and some can target using a remote air link. Iran's objective 
is to overwhelm enemy air defenses with mobile CDCMs, combined with 
multiple rocket launchers (MRLs), coastal artillery, and ballistic 
missiles.
    Iran has historically placed the majority of its conventional force 
strength--to include armor, mechanized infantry, and infantry units--
close to its borders with Iraq and Turkey. This reflects its defensive 
military doctrine, which is designed to slow an invasion and force a 
diplomatic solution to hostilities. Iranian military training and 
public statements echo this defensive doctrine. Iran continues to build 
its capability to counter more advanced adversaries, including the 
recent merger of the Basij Resistance Forces with IRGC ground forces.
    Iran's unconventional forces, to include its paramilitary forces 
trained according to its asymmetric warfare doctrine, would present a 
formidable force on Iranian territory. These forces would include 
commando and special forces units, smaller specially trained teams 
embedded within the conventional force units, selected Basij forces, 
and combat patrols of the Law Enforcement Forces. Numbers of personnel 
could exceed 1 million.

                     THE IRGC-QUDS FORCE (IRGC-QF)

    Iran established the Islamic Revolutionary Guard Corps-Quds Force 
in 1990 as an elite unit within the IRGC. Although its operations 
sometimes appear at odds with the public voice of the Iranian regime, 
it is not a rogue element; it receives direction from the highest 
levels of government, and its leaders report directly, albeit 
informally, to Supreme Leader Ali Khamenei. The Quds Force employs 
complementary diplomatic and paramilitary strategies.
    The Quds Force stations operatives in foreign embassies, charities, 
and religious/cultural institutions to foster relationships with 
people, often building on existing socio-economic ties with the well 
established Shia diaspora. At the same time, it engages in paramilitary 
operations to support extremists and destabilize unfriendly regimes. 
The IRGC and Quds Force are behind some of the deadliest terrorist 
attacks of the past three decades, including the 1983 and 1984 bombings 
of the U.S. Embassy and annex in Beirut, the 1983 bombing of the Marine 
barracks in Beirut, the 1994 attack on the AMIA Jewish Community Center 
in Buenos Aires, the 1996 Khobar Towers bombing in Saudi Arabia, and 
many of the insurgent attacks on coalition and Iraqi security forces in 
Iraq since 2003. Generally, it directs and supports groups actually 
executing the attacks, thereby maintaining plausible deniability within 
the international community.
    Support for these extremists takes the form of providing arms, 
funding, and paramilitary training. In this, Quds Force is not 
constrained by ideology; many of the groups it supports do not share, 
and sometimes openly oppose, Iranian revolutionary principles, but Iran 
supports them because of common interests or enemies.
    The Quds Force maintains operational capabilities around the world. 
It is well established in the Middle East and North Africa, and recent 
years have witnessed an increased presence in Latin America, 
particularly in Venezuela. As U.S. involvement in global conflicts 
deepens, contact with the Quds Force, directly or through extremist 
groups it supports, will be more frequent and consequential.
    Each Provincial Corps in the Quds Force possesses a unit, called 
Saberin, which has limited special operations capabilities. These units 
rotate to northwest Iran to perform counter-insurgency operations 
against the Kurdish Free Life Party (PJAK) and to the southeast against 
Jundallah.

                      IRAN'S SUPPORT TO TERRORISM

    Over the last 3 decades, Iran has methodically cultivated a network 
of sponsored terrorist allies and surrogates capable of conducting 
effective, plausibly deniable attacks against the United States and 
Israel.
    Through its longstanding relationship with Lebanese Hizballah, Iran 
maintains a capability to strike Israel and threaten Israeli and U.S. 
interests worldwide. With Iranian support, Lebanese Hizballah has 
exceeded 2006 Lebanon conflict armament levels. On November 4, 2009, 
Israel interdicted the merchant vessel FRANCOP, on which Iran was 
attempting to smuggle weapons probably destined for Lebanese Hizballah 
including large quantities of 122mm and 107mm surface-to-surface 
rockets, 106mm antitank shells, mortar shells, hand grenades, and small 
arms ammunition. The Quds Force operates training camps in Lebanon, 
training LH and other fighters. Iran also provides hundreds of millions 
of dollars per year in funding to support Lebanese Hizballah.
    Iran provides Kata'ib Hizballah (KH)--an Iraqi Shia terrorist 
group--and other Iraqi militant groups with weapons and training. 
Inside Iran, the Quds Force or Lebanese Hizballah-led training 
includes: small arms, reconnaissance, small unit tactics, and 
communications. Selected individuals or groups receive more specialized 
training in assassinations, kidnappings, or explosives. Iranian 
materiel assistance and training increased the lethality of roadside 
Improvised Explosive Devices (IED) and improvised rockets, enhancing 
the capabilities of the supported groups in Iraq, Afghanistan, and the 
Levant.
    Iran's support to Palestinian groups--including HAMAS, the 
Palestinian Islamic Jihad, and the Popular Front for the Liberation of 
Palestine-General Command--produced improvements in their capabilities 
and increased the threat to Israeli and U.S. interests in the region. 
Iranian training and material support assisted HAMAS in the development 
of the Qassam rocket, extending its range to 40km. Iran also continues 
to smuggle weapons, money, and weapons components into the Gaza Strip 
through tunnels in the Philadelphi corridor.
    The Quds Force has provided limited and measured lethal support to 
select Afghan insurgent and terrorist groups since at least 2006. 
Iranian supplied 107mm rockets, plastic explosives, and mortar rounds 
have been recovered in Taliban-affiliated cache locations.

      IRANIAN'S NUCLEAR AND BALLISTIC MISSILE WEAPONS CAPABILITIES

    Iran is actively developing its nuclear program, including uranium 
enrichment and heavy water nuclear reactor activities in direct 
violation of multiple United Nations Security Council resolutions. This 
includes construction of the secret enrichment facility located on an 
IRGC military base near Qom that was revealed in the fall 2009. Iran 
also continues to develop ballistic missiles which could be adapted to 
deliver nuclear weapons.
    Tehran has refused to cooperate with the International Atomic 
Energy Agency, particularly by refusing full access to facilities, 
documents, and personnel as the IAEA investigates Iran's nuclear 
program. Iran's nuclear activities and related lack of openness with 
the international community raise serious questions about Iran's intent 
and pose a significant threat to the peace and stability of the Middle 
East.
    Iran has gone to great lengths to protect its nuclear 
infrastructure from physical destruction. It has placed an emphasis on 
a number of factors to include locating facilities in buried sites, 
establishing hardened facilities and attempting to acquire 
sophisticated air defense systems.
    Over the past two decades, Iran has placed a significant emphasis 
on developing and fielding ballistic missiles. Iran began ballistic 
missile acquisition and production programs in the 1980s during the 
Iran-Iraq War to address its inability to counter Iraqi missile 
attacks. Iran currently has the largest deployed ballistic missile 
force in the Middle East. Since 2006, Iran has demonstrated its missile 
capabilities in four highly-publicized exercises, nicknamed ``Noble 
Prophet.''
    Iran continues to develop ballistic missiles capable of targeting 
Arab adversaries, Israel, and central Europe, including Iranian claims 
of an extended-range variant of the Shahab-3 and a 2,000-km medium 
range ballistic missile (MRBM), the Ashura. Beyond the steady growth in 
its missile and rocket inventories, Iran has boosted the lethality and 
effectiveness of existing systems with accuracy improvements and new 
sub-munition payloads.
    Short-range ballistic missiles provide Tehran with an effective 
mobile capability to strike coalition forces in the region. Iran 
continues to improve the survivability of these systems through 
technological advances, such as solid-propellant and the use of anti-
missile defense tactics.
    Iran has also developed medium-range ballistic missiles, and 
continues to increase the range, lethality, and accuracy of these 
systems. The Shahab 3, based on the North Korean No Dong, can reach all 
of Israel. The Ashura or ``Sejil'' is an indigenous, two-stage missile 
under development, which uses solid-propellant technology, reducing the 
launch preparation and footprint.
    DIA assesses that, with sufficient foreign assistance, Iran could 
develop and test an intercontinental ballistic missile (ICBM) capable 
of reaching the United States. In late 2008 and early 2009, Iran 
launched the Safir, a multi-stage space launch vehicle (SLV), 
demonstrating progress in some technologies relevant to ICBMs. Iran 
displayed its next-generation SLV, the Simorgh, in February 2010. The 
Simorgh is much larger than the Safir and shows progress in booster 
design that could be applicable to an ICBM design.

                               CONCLUSION

    In summary, Iran seeks to increase its regional power by countering 
Western influence, expanding ties with its neighbors, and seeking a 
leadership role in the Islamic world. Diplomacy, economic leverage, and 
active sponsorship of terrorist and paramilitary groups are the tools 
Iran uses to drive its aggressive foreign policy. Nevertheless, 
internal security remains the regime's primary focus. While it is 
unlikely to initiate a conflict intentionally or launch a pre-emptive 
attack, Iran uses its military forces to defend against both external 
and internal threats. Iran does have the capability to restrict access 
to the Strait of Hormuz with its navy temporarily and threaten U.S. 
forces in the region and our regional allies with missiles. Iran 
assesses the benefits gained from its use of terrorist surrogates 
outweigh the costs. Tehran has gone to great lengths to protect its 
nuclear infrastructure from physical destruction. Iran presents a wide 
array of threats and challenges to the United States and its allies.
    Let me conclude by saying the potential threats posed by and 
evolving trends in Iran are among the highest priorities for the 
Defense Intelligence Agency. As General Petraeus noted to this 
committee last month, ``the Iranian regime is the primary state-level 
threat to stability'' in the U.S. Central Command area of 
responsibility. It is a core responsibility of the DIA to ensure our 
Nation has the best available intelligence to protect deployed U.S. 
personnel and their families, our allies, and partners from the threats 
posed by Iran. DIA also retains a core responsibility to prevent 
strategic surprise on a larger scale from any quarter, including Iran. 
In my recent visits with DIA's military and civilian personnel deployed 
to the Middle East, I remain impressed by--and thankful for--their 
willingness to serve the Nation. On their behalf, I thank this 
committee for your strong support and continuing confidence in the 
Defense Intelligence Agency and its mission.

    Chairman Levin. Thank you very much, General Burgess. We're 
going to have a 7-minute first round.
    Secretary Flournoy, the President said, ``I've been very 
clear that I don't take any options off the table with respect 
to Iran.'' Now, that means to me that military options remain 
on the table, and my question is: does the President's 
statement about options on the table include military options, 
and in turn, do they include options of a maritime quarantine 
or blockade of Iran's oil exports or import of refined 
petroleum products?
    Ms. Flournoy. Senator Levin, as the President said, all 
options are on the table. We see it as DOD's responsibility to 
plan for all contingencies and provide the President with a 
wide range of military options, should they become necessary. 
But, as both Secretary Gates and Chairman Mullen have stated, 
military options are not preferable. We continue to believe 
that the most effective approach at this point in time is a 
combination of diplomacy and pressure in terms of how best to 
change Iranian behavior.
    The President has stated that no options are off the table. 
In terms of specific options or contingencies, I prefer to 
discuss those in a closed session.
    Chairman Levin. Is it fair to say that the options that I 
described are included in the all-options comment?
    Ms. Flournoy. I would rather address that in a closed 
session, sir.
    Chairman Levin. Is your word all options? Is that your 
statement?
    Ms. Flournoy. Yes, all options are on the table.
    Chairman Levin. That's fine, including military options?
    Ms. Flournoy. Yes.
    Chairman Levin. I just want to say that I think that it's 
important that be the case. Secretary Flournoy, I support very 
much what you said because I think it's critical that Iran 
understand the seriousness of our purpose and the unity behind 
a strong message to them.
    General Cartwright, I was going to ask you about the 
contingency plans being prepared. I assume your answer is the 
same as Secretary Flournoy on that question?
    General Cartwright. It is, sir.
    Chairman Levin. Alright. I know that's not the preferable 
option. It never is. But it also has to remain as an option.
    Secretary Burns, can you tell us what additional specific 
sanctions are we seeking at the U.N. that are not already in 
U.N. Security Council resolutions?
    Ambassador Burns. Senator Levin, as I said, I think we 
built increasing momentum toward a strong U.N. Security Council 
resolution. Intensive negotiations on the text of that 
resolution have just begun. Russia and China are taking active 
part in that effort.
    We want to build on the existing sanctions by looking at 
ways in which we can increase pressure, particularly with 
regard to the financial sources that Iran draws upon to finance 
its proliferation activities and its nuclear program. We want 
to look at ways in which we can, in particular, target the 
activities of the Islamic Revolutionary Guard Corp (IRGC), 
which has been eminently involved in the nuclear program. It 
was an IRGC facility at which the Qom clandestine enrichment 
facility has been constructed.
    The IRGC has also expanded its economic role and controls a 
number of companies in Iran, which also provide, I think, room 
for us to explore in a new U.N. Security Council resolution. 
It's going to be a difficult process in New York. It always is 
in trying to work toward a tough U.N. Security Council 
resolution.
    But, we don't have a higher priority right now. We're going 
to work to try to make those measures as strong as we possibly 
can and to achieve them in as quick a time as we can.
    Chairman Levin. We know that you're not able, in this 
setting, to describe the exact status of those discussions and 
negotiations. But, in general, let me ask you whether the 
administration would support the Senate-passed legislation 
known as the Dodd-Shelby Act, which would make sanctionable 
efforts by foreign firms to supply refined gasoline to Iran or 
supply equipment to Iran that could be used by Iran to expand 
or to construct the oil refineries.
    Ambassador Burns. Senator, I'd say a couple of things.
    First, I think our efforts toward a new U.N. Security 
Council sanctions resolution are one element in the strategy 
which I described before. We think that a U.N. Security Council 
resolution helps send a strong, unified message of 
international resolve, which is important. We believe it will 
contain some significant measures to increase economic 
pressure.
    We believe it can also provide a legal and political 
platform off of which the United States, the European Union 
(EU), and other countries can consider further measures 
consistent with our own laws to amplify the impact of whatever 
gets done in New York. We want to work with Congress with 
regard to the legislation that you mentioned. We share the 
sense of purpose, the goals, as well as the sense of urgency, 
that we know all of you feel about this issue. Our interest is 
in simply working with you to try to shape an approach which is 
going to have maximum impact and be as effective as possible.
    What that means, I think, is that we want to aim for an 
approach which is going to encourage other governments and 
foreign companies to cut their ties with Iran, and is going to 
avoid penalizing countries and companies, which are actually 
beginning to cooperate in that effort. We look forward to 
working with you on that.
    Chairman Levin. I hope you will be supportive of that bill 
that we passed, including the specific provision that we think 
is an important part of it and would add great pressure if 
they're aware of the fact that that type of action is under 
consideration.
    General Burgess, let me ask you, my understanding is that 
the U.N. is satisfied that the centrifuges at Natanz are being 
used at the moment to produce low-enriched uranium (LEU), which 
is enriched to 5 percent or less, and that these centrifuges 
are not yet being used to produce highly-enriched uranium (HEU) 
at a level needed for nuclear weapons, which is above 80 
percent enrichment. Is that correct?
    General Burgess. Sir, the open source reporting would 
corroborate that, but any further discussion of that would be 
better in closed session.
    Chairman Levin. Alright. Now, if Iran decided to produce 
HEU for nuclear weapons, which is above 80 percent enrichment, 
with the installed centrifuges that they have, how long would 
it take, approximately, to produce enough HEU for one nuclear 
weapon?
    General Burgess. Sir, the general consensus, not discussing 
the exact number of centrifuges that we actually have 
visibility into, is we're talking 1 year.
    Chairman Levin. To produce that much HEU for one nuclear 
weapon, should they begin to do that?
    General Burgess. Yes, sir, for one nuclear weapon. You 
characterized it correctly, Senator.
    Chairman Levin. That's fine. Finally, has the IC determined 
whether Iran has decided to produce HEU?
    General Burgess. Sir, as we stated in the 2007 National 
Intelligence Estimate (NIE), that still stands that we do not 
have inside information that the regime has made the decision 
to move in that direction.
    Chairman Levin. Thank you.
    Senator Collins, I guess you are next. The last shall be 
first.
    Senator Collins. Thank you, Mr. Chairman.
    General Burgess, let me follow up on the question that the 
chairman just asked you. It's my understanding that there is a 
new NIE that has been completed on the very question that has 
just been raised, but not yet released. Is that accurate?
    General Burgess. Ma'am, I think it is accurate to say that 
there is an NIE currently underway. The decision on when it 
will be released and when it will be finished has not been 
determined yet.
    Senator Collins. Do you expect that the findings in this 
NIE will be the same as the findings of the 2008 or 2009 
review? It blurs together; the NIE that you just referenced?
    General Burgess. Ma'am, it would be better if we discussed 
that in closed session.
    Senator Collins. Ok.
    Secretary Burns, 2 weeks ago, I met with the Director 
General of the IAEA, Mr. Amano, and I was, first of all, very 
impressed with the contrast in his reporting on Iran versus his 
predecessor. He is much more willing to give an accurate, 
straightforward assessment of Iranian capabilities. He 
expressed frustration about the lack of compliance by Iran with 
the transparency measures, known as the Additional Protocol, 
that would allow for more intrusive inspections by the IAEA 
inspectors. To date, the Iranians have completely ignored the 
recommendations in the IAEA's February report.
    We all know that the administration is working hard with 
the U.N. Security Council to try to produce an effective 
sanctions regime. Many of us, however, are concerned that the 
sanctions that come out of the U.N. Security Council may well 
be inadequate to accomplish the goal of increased transparency 
and getting the Iranians to halt the work that they are doing. 
What could be done by our country if the U.N. Security Council 
does not follow through with tough and effective sanctions?
    Ambassador Burns. Thank you very much, Senator.
    What we've been doing is to try to use every lever that we 
already have at our disposal to encourage foreign companies and 
foreign entities to cut their ties with Iranian economy. 
Already, I think, we've seen a considerable amount of movement 
in that direction.
    You've seen major energy companies like Total, ENI, and 
Statoil, who have said they're not going to do any new 
investment in Iran.
    You've seen a number of companies stop gasoline sales to 
Iran including Reliance, Glencore, IPG, and Lukoil, most 
recently.
    You've seen some major international banks--Deutsche Bank 
and HSBC--pull out of business with Iran.
    Just today, I saw a story in the press that Daimler, the 
German carmaker, is pulling out of its business in Iran.
    We're continuing to work very hard to use the existing 
legislation and existing U.S. law to encourage companies to 
move out of that kind of business. That is having an impact, I 
think, on the Iranian economy and on its calculations. As I 
said before, a U.N. Security Council resolution is one of a 
number of elements in our strategy. It does provide a platform 
for the EU and its members, as it has done in the past, to 
consider other kinds of measures that it can take to implement 
in a very tough way whatever it is that the U.N. Security 
Council is able to agree to.
    I think, to answer your question, is that we have a number 
of other tools that we're using on which we can build.
    Senator Collins. Madame Secretary, Secretary Gates on 
Sunday raised a very serious verification question publicly 
about the Iranian nuclear program. He said, ``If their policy 
is to go to the threshold, but not assemble a nuclear weapon, 
how do you tell that they have not assembled? It becomes a 
serious verification question, and I don't actually know how 
you would verify that.''
    What assurances can you provide that we will know before it 
is too late that Iranian's nuclear program has gone from 
worrisome to the level that Vice President Biden has described 
as unacceptable? In other words, if Iran has compiled all the 
components for a nuclear weapon but stops short of actually 
assembling them, how will we know when that point is reached? 
What will be our response?
    Ms. Flournoy. Senator Collins, I think that's actually, 
maybe, a question that's better for my intelligence colleagues. 
I think that what Secretary Gates was making clear is there are 
many pieces to this puzzle. There are many different things 
that go into a nuclear weapons capability. There are some that 
we have a very good sense of and we have fairly high confidence 
in.
    But I think there's always a question of what you don't 
know. I would say if we want to get into the particulars of 
that, I would suggest we have that by bringing in our 
intelligence colleagues in a closed session.
    Senator Collins. Secretary Burns, let me return to the 
issue of the U.N. Security Council resolution. How long will 
our country wait for the U.N. Security Council to act before 
moving onto other sanctions either unilaterally or with our 
allies?
    Ambassador Burns. Ma'am, as the President has made clear, 
what we seek is the strongest possible sanctions resolution in 
the shortest possible time this spring. We approach this with a 
real sense of urgency. We are building momentum, most recently 
with the decision by China to engage in a serious negotiation 
in New York over the text and the content of a new resolution.
    I think a new U.N. Security Council sanctions resolution is 
an important element of our strategy for intensifying pressure. 
We're going to do everything possible to try to achieve that 
in, as the President has said, a matter of coming weeks, this 
spring.
    Senator Collins. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Collins.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman. Thanks to you and 
Senator McCain for convening this very important hearing. 
Thanks for this distinguished panel of witnesses. What we're 
dealing with here, today, is what I believe to be the most 
significant security threat to our country in the world. It has 
Armed Services Committee implications, obviously, and so, I 
think it's very appropriate that we're holding this hearing.
    There was an important exchange, I think, between you, Mr. 
Chairman, and the witnesses about having all options on the 
table. I was very interested in the press conference that 
President Obama held yesterday at the conclusion of the Nuclear 
Security Summit. He said, I presume in response to a question, 
maybe not, in regard to sanctions, ``sanctions are not a magic 
wand. What sanctions do accomplish is hopefully to change the 
calculus of a country like Iran, so they see there are more 
cost and fewer benefits to pursuing a nuclear weapons 
program.''
    Of course, I agree with that. It's why I think it's so 
urgent that we go to the strongest possible sanctions. I also 
agree with what the President said. It's, in a sense, a 
different language than we've used, that sanctions are not a 
magic wand. They're not a guarantee that we will achieve the 
objective we want to achieve.
    As the witnesses all know, a succession of American 
administrations of both political parties have made clear over 
and over again. I would daresay every Member of Congress of any 
political party has made clear over and over again; it is 
unacceptable to us in terms of our security and our values that 
Iran obtain nuclear weapons. That, I assume, is why we continue 
to say, Secretary Burns and Secretary Flournoy, that all 
options, including the military, remain on the table. That is 
to guarantee that the unacceptable, which is that Iran obtain 
nuclear weapons, does not become reality. We have to keep all 
options, including the military option, on the table.
    Am I reading that correctly? Am I hearing it correctly, 
Secretary Flournoy?
    Secretary Flournoy. Yes, Senator. The President has said 
both that a nuclear Iran is unacceptable and that all options 
are on the table. We've also said that, at this moment in time, 
we believe there are other options that need to be pursued in 
their fullest. That's what we're doing with regard to both 
engagement and pressure, sanctions as well as other measures.
    Senator Lieberman. Of course, I agree with that. I have the 
same sense of urgency that Secretary Burns referred to about 
the sanctions, but I also feel that if the sanctions do not 
work, then we have to be prepared to use military force to stop 
the unacceptable from happening, which is that Iran become a 
nuclear power.
    I want to pursue a line of questioning here about why it's 
so justified that the bipartisan consensus over a period of 
time in our country has been that it is unacceptable for Iran 
to have nuclear weapons. In that regard, I would really urge 
everyone here, and everyone who can get their hands on it, to 
read the prepared testimony of General Burgess for this hearing 
today. It is very powerful.
    General Burgess outlines the goals of the Iranian regime 
and makes clear that the IRGC and the Quds force, and I quote 
from his opening statement, ``are not a rogue element,'' 
referring to the Quds force. It receives direction from the 
highest level of government. Its leaders report directly albeit 
informally to Supreme Leader Ayatollah Ali Khamenei.
    General Burgess then goes on to describe a series of what 
he calls ``deadly terrorist attacks'' over the last 3 decades 
that the IRGC and Quds force have been involved in, going back 
to the bombings at the U.S. Embassy and annex in Beirut and the 
killing of over 240 marines in the bombing of the barracks in 
Beirut in 1983, coming right forward to the support that the 
Quds force and the IRGC have given to extremists and insurgents 
in Iraq that have been responsible for the killing of hundreds 
of Americans. It's very worrisome and compelling testimony.
    General Burgess, is it fair to say, these are my words, but 
I ask you that there already is a lot of American blood on 
Iranian hands?
    General Burgess. Sir, that would be a fair statement.
    Senator Lieberman. So, when the Iranians, the leadership, 
the fanatical leadership, chant death to America, it's actually 
something they've already tragically made happen. It's 
something that we have to take seriously.
    General, the other statement that you made, which I find 
very striking, and I quote here, ``DIA assesses that with 
sufficient foreign assistance, Iran could develop and test an 
intercontinental ballistic missile (ICBM) capable of reaching 
the United States.'' Would you elaborate on that statement 
that's in your prepared testimony?
    General Burgess. Senator, what I would say in this setting, 
and we can have further discussion in closed session, is that 
the Iranians continue, as I said in my statement, to develop a 
capability in their missile system. They are improving not only 
their range, but their accuracy. They have certain 
capabilities. If others decide to assist them, they can 
leapfrog that technology as they have given indication of some 
testing that is of concern to us.
    Senator Lieberman. Ok. I appreciate that. In the closed 
session, I want to take up with you what your particular 
concerns are about the kinds of foreign assistance Iran might 
receive to achieve the capability to launch a ICBM, presumably 
at some point, carrying nuclear weapons against the United 
States.
    Secretary Burns, I think sometimes to appreciate the 
urgency of the matter, it's important to look forward and ask 
what the world would look like if Iran achieved nuclear 
capacity. I want to ask you just to speak briefly for a few 
moments. Is it fair to conclude that a nuclear Iran would 
strengthen the hand of terrorist groups that are proxies for 
Iran, such as Hamas, Hezbollah, and the extremists in Iraq, if 
Iran had nuclear weapons?
    Ambassador Burns. Yes, sir. That is fair to say. I think 
the consequences of a nuclear-armed Iran truly would be 
catastrophic. I think you could easily stimulate a regional 
arms race which could have enormous dangers and carry enormous 
risks for stability in a part of the world that matters greatly 
to us and to some of our closest friends.
    I think it would also do enormous damage, not only to the 
credibility of the U.N. and international institutions, but to 
the nuclear nonproliferation regime at exactly the moment as we 
saw in the Nuclear Security Summit over the last couple of days 
when we're working hard to try to strengthen that regime. I 
don't think anyone should underestimate what's at stake.
    Senator Lieberman. I appreciate your answer. I agree 
totally on the last point that all the steps that are occurring 
now, the New START, the nonproliferation to terrorists that was 
a subject of the summit yesterday, all, in my opinion, will be 
decimated if Iran goes nuclear.
    My time is up. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    General Cartwright, how long will it be until Iran could 
have a nuclear weapon capability?
    General Cartwright. To go into detail of capability, in 
other words we talked earlier about a single weapon, just to 
give an example in an open forum. We talked at 1 year the 
potential to have a weapon capability.
    Senator McCain. Just 1 year?
    Secretary Burns, do you believe that Russia and China would 
agree to sanctions that included the cutoff of refined 
petroleum products into Iran?
    Ambassador Burns. I think that's going to be very difficult 
to achieve.
    Senator McCain. Do you believe that China will agree to 
sanctions at all through the U.N. Security Council?
    Ambassador Burns. Yes, sir. I do.
    Senator McCain. You do? You're on the record. You believe 
that China will agree to sanctions through the U.N. Security 
Council that would have meaningful affect?
    Ambassador Burns. Yes, sir. I think that it's, as you asked 
is that possible? I do believe that's possible, yes.
    Senator McCain. Is it probable?
    Ambassador Burns. We'll have to see, sir. We're just 
beginning a serious negotiation in New York. As I mentioned 
before, President Obama and President Hu had a constructive 
conversation about this a couple of days ago.
    I think we and the Chinese agree that we need to send a 
strong message to Iran. So, yes, sir, I do think it's possible.
    Senator McCain. Probable.
    Ambassador Burns. Yes, sir, I think it is likely that we 
would be able to produce a U.N. Security Council resolution.
    Senator McCain. When do we envision this taking place?
    Ambassador Burns. Sir?
    Senator McCain. Six months?
    Ambassador Burns. I hope very much in weeks. We're going to 
work very, very hard to try to achieve a new sanctions 
resolution that has meaning this spring in the shortest 
possible time.
    Senator McCain. Why doesn't the United States, with our 
allies, who have agreed that they would act with us--I'm 
talking about the French, British, and Germans--act 
unilaterally, at least to put some sanctions that could have 
some effect on the Iranian behavior rather than waiting for the 
U.N. Security Council, which we have been waiting now for about 
a year and a half, at least? Let me put it this way: the 
sanctions so far that have been enacted by the U.N. Security 
Council have been, in the view of most observers, ineffective.
    Ambassador Burns. Sir, I'd just say two quick things.
    First, our closest European allies expressed strong support 
for trying to achieve a new U.N. Security Council resolution as 
a part of our strategy.
    Senator McCain. Haven't they also agreed to join with us in 
imposing sanctions right away?
    Ambassador Burns. Sir, their very strong preference, they 
can speak for themselves on this, is to try to achieve a U.N. 
Security Council resolution as a part of our strategy. As I 
mentioned before that a resolution can serve as a legal and 
political platform for the EU and some of our key European 
partners to take other steps as they have in the past.
    My second comment, sir, very quickly is that we're 
continuing to work very hard to use existing legislation, 
existing U.S. law, to discourage companies from doing business 
with Iran. We've had some success in doing that. Major oil 
companies like Statoil, like ENI, like Total, major banks, 
insurance companies including Allianz from Germany, are pulling 
out of business in Iran. A number of major companies, as I 
mentioned before, have announced that they're not going to sell 
gasoline to Iran anymore, Reliance, Vitol, and Lukoil most 
recently from Russia.
    We're going to continue to work that hard as well.
    Senator McCain. But none of these actions have had any 
perceptible affect on Iranian behavior.
    Ambassador Burns. I think the Iranians do notice when these 
things happen. I think they are concerned about it. I think one 
way of judging that is the considerable effort that the 
Iranians are putting into, right now, to discourage a new U.N. 
Security Council resolution and to work hard with members of 
the U.N. Security Council against that.
    Senator McCain. I'll be very interested to see if your 
prediction comes true; that meaningful sanctions will be agreed 
to by the Russians and the Chinese. They've been playing rope-
a-dope with us for now over a year. I'll be very interested to 
see if your optimism comes true. I see no justification for it.
    Ms. Flournoy, I noticed with interest that you talked about 
the importance of strengthening Lebanon and national security 
implements, U.N. Security Council resolutions, assert 
government control throughout Lebanon's territory. Have you 
seen any progress there including implementing the U.N. 
Security Council resolution that calls for the disarmament of 
Hezbollah?
    Ms. Flournoy. We have an extensive assistance program with 
the Lebanese armed forces.
    Senator McCain. I'm aware of the assistance program. I'm 
asking if you have seen any progress in disarming Hezbollah.
    Ms. Flournoy. I think we have seen an increase in their 
political will to do this. We have not yet seen them accomplish 
that goal. This is a work in progress, and it's going to take 
some time.
    Senator McCain. Is it of some concern to you the reports 
are today that Syria has given Scud missiles to Hezbollah that 
are now in place in Southern Lebanon?
    Ms. Flournoy. We are very concerned about those.
    Senator McCain. Is that a sign of progress?
    Ms. Flournoy. Of course not, sir.
    Senator McCain. Of course not. But, you would never know it 
from the statement you made, saying that we're working with our 
partners to strengthen national institutions.
    There has been no progress in disarming Hezbollah. There 
has been no progress in decreasing tensions there. As everybody 
knows, the Scud missile now in Southern Lebanon change the 
equation rather significantly if Hezbollah either decides to 
attack or decides to respond to some Israeli action.
    Ms. Flournoy. Sir, if I could.
    Senator McCain. Yes.
    Ms. Flournoy. We have seen the Lebanese armed forces exert 
control in areas that were previously dominated by Hezbollah. 
It is a work in progress.
    Senator McCain. I would be very interested in seeing that.
    Ms. Flournoy. Have we got there? No, we have not gotten to 
where we want to go yet.
    Senator McCain. I would be very interested in seeing those 
areas of any significance that have been taken over by the 
Lebanese military. Obviously, Hezbollah controls the areas of 
Southern Lebanon that they want to. They now have veto power 
over any action that the Lebanese government might take. Both 
Prime Minister Hariri and Walid Jumblatt both said that they 
had to go to Damascus, both individuals whose fathers had been 
assassinated by Hafez al Assad.
    So your rosy scenario is not corroborated by the facts on 
the ground, which is an indication of our weakening position 
throughout the region because of our failure to act.
    I guess my time is expired.
    Chairman Levin. Thank you, Senator McCain.
    Senator Reed.
    Senator Reed. Thank you very much.
    General Cartwright, we will all acknowledge that a 
sanctions approach is not a magic wand. Is a military approach 
a magic wand?
    General Cartwright. No, Senator, it's not. When you look at 
the military side of the equation, we are working hard to 
support things like sanctions and other diplomatic activities 
in the region with the capabilities of strengthening the 
region's military, strengthening nation states to be able to 
defend themselves, and improving capabilities in the area. But, 
military activity alone is not likely to be decisive either.
    Senator Reed. Let's just take it a step further; if you 
want to reserve comments at the closed session, that's fine. 
The usual proposal for a military action is some type of 
discreet strike to disrupt the nuclear facilities in Iran. I 
presume that would not be 100 percent effective in terms of 
knocking them out. It would probably delay them, but that if 
they're persistent enough, they could at some point succeed.
    Is that a fair judgment from your position?
    General Cartwright. That's a fair judgment.
    Senator Reed. So, the only absolutely dispositive way to 
end any potential weapons program would be to physically occupy 
their country and to disestablish their nuclear facilities. Is 
that a fair, logical conclusion?
    General Cartwright. Absent some other unknown calculus that 
would go on, it's a fair conclusion.
    Senator Reed. After 7 years in Iraq and more years in 
Afghanistan, are military forces prepared to conduct such an 
operation?
    General Cartwright. I think our military forces with high 
confidence could undertake such an operation. But, I think that 
there would be consequences to our readiness and to the 
challenges that we already face in this Nation economically to 
pay for a war, et cetera.
    Senator Reed. With consequences within Iraq and 
Afghanistan?
    General Cartwright. With consequences in Iraq and 
Afghanistan.
    Senator Reed. How many forces do you think it would be 
necessary to conduct such an operation?
    General Cartwright. I'd reserve that for a closed session, 
sir.
    Senator Reed. More than we have committed already into 
Afghanistan and Iraq?
    General Cartwright. I'd prefer to reserve that for closed 
session.
    Senator Reed. General Burgess, I think Senator Lieberman's 
acknowledgement of your testimony is very accurate. It is very 
sobering and very appropriate. But, I just want to continue on 
the issue that the IRGC is not a rogue force.
    Now, I'll ask a question which may be a very dumb question. 
Is that good or bad? If there is a connection to a political 
organization, does that limit their operations or does it in 
any way constrain their operations or is it something that 
empowers them more?
    The other side of the equation would be, there are 
countries where there are truly rogue forces that are 
controlled by no one. I think of Pakistan, and entities which 
are not controlled by the government; but controlled by 
security agencies, like Lashkar-E-Tayyaba, who pose potentially 
even more destabilizing roles. One of the real dangerous points 
about the Mumbai attack was if the Pakistanis knew about it, 
that's bad; if they didn't know, it's much worse.
    So can you comment upon that?
    General Burgess. Sir, I think what I would say in this 
setting is that, as I laid out in the testimony, the Quds 
force, the IRGC folks, that there is some control that is 
directed from on high. How much and within what bounds that is 
put on them is not something I'm prepared to go into detail on. 
So, when we say they are not a rogue force, they are not truly, 
totally independent operators. There is some cognizance on 
high.
    Senator Reed. Again, a question, I think, from your answer 
is something that we will consider in closed session or with 
more of a debate and a conclusion. Is political control an 
opportunity that we might exploit in terms that the political 
leadership constrains them or is that something that further 
empowers them? I think we will need to defer the debate to 
later.
    General Burgess. Yes, sir.
    Senator Reed. Secretary Flournoy, you mentioned that it was 
a successful election in Iraq. The election was successful, 
very much so. I just returned from there recently as so many of 
my colleagues did.
    The Iranians spent a lot of effort trying to consolidate 
the Shia into a block that would effectively insist upon a 
Shia-controlled government. The election was, in many respects, 
a vindication of nationalism and secularism, which was a 
significant, I think, achievement. Now, we're into the 
formation of government.
    I think the Iranians lost the election. They're trying to 
win the formation. All the parties have gone to Tehran to talk 
to the Iranian forces. Can you comment now about the process 
going forward, in terms of the Iranian influence in the 
formation of the Iraqi Government and the longer-term in Iraq?
    Ms. Flournoy. The Iranians did seek to influence the 
election, and they were not very successful. The parties they 
backed most strongly did not do all that well. That was the 
same result we saw in the provincial elections last year.
    I think the Iraqi people are pretty clear that they don't 
want a government that's made in Tehran. There were talks that 
began in Tehran since then. The parties have also traveled to 
Turkey, to Saudi Arabia, and to other neighbors in the region.
    I think those who are most likely to be in a position to 
actually form a government have asserted their commitment for 
inclusion of all the blocks represented and so forth. I think 
Iran has had a history now, over the past several years, of 
overplaying its hand in Iraq. It tried to stop the Status of 
Forces Agreement and the Strategic Framework Agreement, and it 
didn't succeed. It was funding militants in Basra, yet a 
successful offensive was conducted against them. They tried to 
influence the last two elections, and their candidates and 
parties have not done so well.
    So, yes, they're trying to influence the process. Yes, we 
have to watch their meddling very carefully. But, I don't think 
they're going to be successful because I think, ultimately, 
Iraqi nationalism will trump Iranian meddling.
    Senator Reed. Thank you, my time is expired.
    Chairman Levin. Thank you, Senator Reed.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman. Thank you all for 
being with us today and for your service to our country.
    Secretary Flournoy and Secretary Burns, does it remain U.S. 
policy to prevent Iran from achieving a nuclear weapons 
capability?
    Ms. Flournoy. Yes, sir.
    Senator Thune. Would you say that, absent a credible 
military threat, Iran is less likely to come to the negotiating 
table and suspend its nuclear program?
    Ms. Flournoy. I think the President has been very clear 
that all options are on the table. Right now, we believe the 
best combination is diplomatic engagement and pressure.
    Senator Thune. I want to come back to the discussion you 
were having with Senator McCain regarding U.N. Security Council 
resolutions. I think the President has said that he's not 
interested in waiting months for a new sanctions regime to be 
in place. I'm interested in seeing that regime in place in 
weeks.
    With regard to the potential timing of that, I guess the 
question I would have is, how long will the United States seek 
a U.N. Security Council resolution on Iran before moving on to 
other sanctions?
    Ambassador Burns. Senator, the President has been very 
clear that we want to achieve the strongest possible sanctions 
resolution in the shortest possible time, this spring. We're 
working very hard toward that end. Formal negotiations on the 
new resolution have begun in New York now with the Russians and 
Chinese participating.
    I can't give you an exact date. All I can tell you, sir, is 
we share the same sense of urgency about getting this done as 
quickly as we can and sending the strongest possible message to 
Iran.
    Senator Thune. If that doesn't come into place in the near 
future, is the United States willing to act with partners 
outside the U.N. context to impose the type of crippling and 
biting sanctions that you've been talking about for the past 
year?
    Ambassador Burns. Senator, I do believe it's possible to 
achieve that result in New York. As I said, I think it's also 
possible then to use that as a platform for taking some of the 
other kinds of measures that the EU, for example, has taken in 
the past. I think that's the most effective approach for us to 
take right now.
    Senator Thune. There was, Secretary Burns, a story in the 
Sunday, March 7, New York Times that the Federal Government has 
awarded billions of dollars in contracts to companies that are 
doing business in Iran or were at the time of the contract. 
According to the article, 49 companies that currently do 
business with the United States are doing business in Iran and 
show no signs of ceasing that activity. Many of these companies 
are subsidiaries of major U.S. corporations.
    If the United States is to have any credibility as we seek 
international sanctions on Iran, shouldn't we start by barring 
subsidiaries of U.S. corporations from doing business with 
Iran?
    Ambassador Burns. Sir, we take very seriously the concerns 
that were raised in that article. I think it's worth noting 
that half of the companies that were mentioned in that New York 
Times article have already pulled out of business in Iran.
    With regard to the question of subsidiaries, sir, American 
companies are already prohibited from doing business with Iran. 
If American companies seek to create subsidiaries simply for 
the purpose of evading U.S. law, the Treasury Department has 
legal basis to go after them, and does it. With regard to 
foreign subsidiaries of U.S. companies, we've already seen in 
recent weeks some movement in the right direction; both 
Halliburton and Caterpillar's foreign subsidiaries have pulled 
out of their business connections in Iran.
    We took the basis for the article very seriously. We're 
continuing to push hard.
    Senator Thune. Are we doing enough to target the banks that 
are doing business in Iran or that are sanctioning companies 
that are doing business with the IRGC? It just seems like you 
continually hear these stories and those reports. We talk about 
targeting their dependence upon imported gasoline and cutting 
off financing through the banks that are supporting it.
    I'm hard pressed to see where we're taking the steps that 
are necessary and effective, if we're serious about putting the 
pressure that you talk about on that regime.
    Ambassador Burns. Senator, a number of companies, foreign 
companies, and banks, if faced with the choice between doing 
business with the United States and doing business with Iran 
are making, what from our point of view, the right choice. The 
tally sheet, as you look at, has a number of major banks. I 
mentioned Deutsche Bank and HSBC. The number of companies that 
have ceased gasoline sales to Iran, including Reliance, Vitol, 
and Lukoil, the Russian company most recently, is increasing.
    I think our efforts are having an impact and we continue to 
work very hard at that.
    Senator Thune. The clock is ticking.
    Ms. Flournoy and General Cartwright, I wanted to get your 
views on another subject. That's the ongoing development of the 
air/sea battle concept that is being proposed and specifically 
how it's going to affect our military strategy toward Iran. The 
Quadrennial Defense Review (QDR) directs the Navy and the Air 
Force to develop this new joint air/sea battle concept for 
defeating adversaries with sophisticated anti-access and area 
denial capabilities.
    Could you provide your views on the development of this new 
air/sea battle concept, and how does this concept fit into our 
overall strategy with regard to dealing with Iran?
    General Cartwright. The concept, as it's articulated in the 
QDR, is to look at anti-access capabilities, particularly in 
those nations that are bordered by oceans, seas, et cetera. 
What kind of capabilities in the 21st century we do believe DOD 
will need in order to penetrate those types of sophisticated 
counters? As we look at Iran, probably the areas of greatest 
relevance, and I'll defer also to Ms. Flournoy, are those 
things that are associated with the straits and narrows. Areas 
that are difficult are defined by being more easily defended 
with shorter-range capabilities and less sophisticated 
capabilities because of the lack of strategic depth and our 
ability to either prevail directly in the face of those threats 
or to work around them. A lot of what we're trying to 
understand is how do you find the synergies between those 
things that come from the sea and those things that are 
inherently long-range or otherwise tactical air.
    How do you find the synergy to work against those types of 
threats, detect them, and then find a kill chain that would 
allow you to penetrate the area?
    Senator Thune. Can I just ask you to follow up? In your 
view, how will long range strike capability fit into that, this 
new air/sea battle concept?
    General Cartwright. One of the key issues of long-range 
strike or the attributes of long-range strike is that it can 
close generally with a target much quicker than a surface 
force. So, from the standpoint of wearing down the offenses or 
eliminating them before you actually have to close with them, 
it gives you that opportunity.
    Senator Thune. Anything to add, Ms. Flournoy? Ok. My time 
is up. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Thune.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman. I, too, want to 
thank the witnesses for coming and giving us your testimony 
today. I think it's important having DOS and DOD here 
discussing this issue.
    We know that Iran's nuclear weapons program, along with its 
military assistance to groups such as Hamas, Hezbollah, and the 
insurgency in Iraq and Afghanistan, serves as a threat to our 
national security interest. The nature of this challenge 
requires a whole-of-government approach that employs all 
aspects of national power. Has the administration formulated 
plans that integrate the diplomatic, informational, military, 
and economic instruments of national power into a comprehensive 
strategy that addresses the threat that Iran presents? 
Secretary Flournoy and Secretary Burns, if you all can comment 
on that?
    Ambassador Burns. Yes, ma'am. I think the short answer is 
yes. We've described, I think, a number of the elements of that 
comprehensive strategy. It's an enormously difficult challenge. 
But, I can't think of a higher priority for the United States 
than addressing that challenge energetically and forcefully.
    Those elements include what we're trying to do 
diplomatically, both the effort at engagement, but also 
economic and political pressure because they complement one 
another. They're both parts of diplomacy. Also, the efforts 
that Under Secretary Flournoy has already described are 
continuing quietly to strengthen our security cooperation with 
our partners in the region, particularly in the Gulf. There are 
a range of other efforts that we make with partners around the 
world on this issue.
    Ms. Flournoy. I would say that complementing our efforts 
for diplomatic engagement and economic pressure is changing 
attitudes. What we see in the region is actually a number of 
countries who share a great concern and anxiety about Iran's 
behavior and their capabilities development. They are actually 
starting to cooperate much more closely with us and with each 
other. We see this in terms of the essence of our defense 
cooperation, in terms of ballistic missile defense cooperation, 
in terms of the bilateral and multilateral conversations, 
information sharing, and plans coordination that's going on.
    I would contest the idea that the balance of power is 
shifting to our enemies. We actually see Iran's behavior 
driving a lot of our friends closer to us and closer to each 
other in the Gulf region.
    Senator Hagan. Thank you. During the 2006 Lebanon war 
between Hezbollah and Israel, as well as during the 2007-2008 
Gaza conflicts between Hamas and Israel, both Hamas and 
Hezbollah demonstrated weapons arsenals that were larger than 
many other small nations. Many of the weapons and munitions 
employed by Hamas and Hezbollah can be directly linked to 
supplies provided by Iran.
    Secretary Flournoy and General Cartwright, what steps, if 
any, is DOD taking to disrupt the proliferation of Iranian 
weapons and weapons technology to non-state actors throughout 
the region?
    Ms. Flournoy. We have increased our intelligence focus on 
this. We've increased our intelligence sharing with others in 
the region. We have been bolstering their anti-smuggling 
capabilities in a number of partner states, so they can be more 
effective interdicting and stopping some of these flows. We're 
also applying substantial pressure to those states that are 
facilitating this movement of goods.
    I don't know if you want to add anything?
    General Cartwright. I think all of those things are true. 
This is still a difficult problem. I wouldn't want to lead you 
to believe that we've effectively cut the stream off.
    We are working very hard with every capability that we 
have, in addition to trying to improve the capabilities, 
particularly of the nations that have these borders that are 
somewhat porous. But, this is a difficult problem.
    Senator Hagan. Secretary Flournoy, when you mentioned our 
intelligence focus, and you're sharing smuggling information 
with the other nations, are they actually doing something and 
taking active steps with the intelligence?
    Ms. Flournoy. We see a mixed record. We could go into the 
details in closed session. Some countries are and some are not 
doing everything we would hope.
    Senator Hagan. Thank you. Despite the fact that many 
Iranian reformists are now in prison, and there are many that 
believe that the Green challenge of the most recent election 
has significantly narrowed the base of the regime to hard-line 
purists that are backed by revolutionary security forces. I was 
wondering, Secretary Burns, do you believe that the Green 
challenge has weakened Ahmadinejad's regime, and how serious 
would you consider the unrest within Iran to be?
    Ambassador Burns. I think that the concerns you saw 
manifested on the streets of Tehran and other Iranian cities 
are very real. I don't think they've gone away. I think they 
reflect a deep discontent. I think we've seen fissures not only 
between the regime and much of the population, but also within 
the leadership itself.
    It's very difficult to predict, but I think they're very 
real issues.
    Senator Hagan. Thank you. We've been talking a lot about 
the sanctions. To my knowledge, no firms have been sanctioned 
under the Iran Sanctions Act (ISA) since its enactment in 1996. 
The ISA was then expanded during the 110th Congress and 
additional provisions have been passed by the House and Senate 
that, I think, are currently in conference.
    Secretary Burns, what has the administration determined 
during its investigation into investments of Iran for 
violations of ISA, and what steps does the administration plan 
to take to ensure that the penalties are imposed for violations 
of this act?
    Ambassador Burns. First, ma'am, as I mentioned before, we 
have tried to make very active use of ISA and of existing U.S. 
law to discourage firms from doing business with Iran. There 
have been some specific instances of that actually occurring. 
At the same time, we go through scores of reports of new 
business deals, particularly in the energy sector, being done 
with Iranians. We have a number that have been highlighted by 
Members of Congress and are primarily within this 
administration; our preliminary review of that shows that a 
number of those cases raised by Members of Congress are in 
fact, problematic.
    We're trying to make sure that we get this right because it 
means sifting through a lot of different information, some of 
which turns out to be unfounded, but some of it real. We look 
forward to staying in very close touch with Congress as we work 
through the results of that effort. We'd also be glad to 
provide a briefing in closed session about some of the results 
of the efforts so far.
    Senator Hagan. Ok. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Hagan.
    Senator Brown.
    Senator Brown. Thank you, Mr. Chairman. Thank you all for 
coming and participating. Mr. Chairman, thank you for your 
leadership.
    I know I'm new here, but one of the things that's always 
concerned me long before I got here was the fact that I don't 
believe that Iran takes us seriously when it comes to demanding 
full disclosure with regard to their nuclear capabilities. 
Iranian unemployment is high. Their cash reserves are 
dwindling, if not depleted. Their citizens are anxious for 
change.
    We had, I felt, an opportunity to help them at some point 
in recent memory to effectuate change. It's always been my 
feeling that the answer is not in the U.N., but it's in the EU, 
and us really implementing draconian sanctions to effectuate 
change. It really comes down to the money; without money and 
without the refining products that they need to survive, 
they're not going to do anything. They're going to continue to 
string us and the world communities along and continue to 
develop their nuclear program. It doesn't take a brain surgeon 
to figure it out.
    I'm concerned that every day that we delay is another day 
that they have to get closer to the capability to export 
terrorism around the region and the world.
    Once again, I'm new here. I don't want to be disrespectful. 
But, what is the administration's plan when it comes to either 
exerting pressure or trying to work with France, Russia, and 
the other countries that have substantial financial assets in 
this region? Without their assistance, quite frankly, and 
without pulling the plug on the finances, I don't think we're 
going to be getting anywhere.
    I'd like either Secretary to respond to that.
    Ambassador Burns. Yes, sir. First we share, absolutely, 
your sense of urgency. You're absolutely right about the 
consequences of a nuclear-armed Iran.
    What we're seeking to do is mobilize the strongest and 
widest possible international pressure. A U.N. Security Council 
resolution is an important part of that because for many of our 
European allies, in particular, that provides an extremely 
valuable platform for them to consider further measures that 
the EU can take. We're going to push as hard as we can, as I've 
said before, to achieve that range of measures as quickly as we 
can, not only in the U.N. Security Council, but also in terms 
of what we can do with others.
    Senator Brown. I just got back from Afghanistan and 
Pakistan, and I obviously heard of the influence of Iran, 
obviously in Afghanistan. As I'm aware, and as you're aware, 
there are two economic sanctions bills, one in the Senate, one 
in the House. I may be missing something, but I know health 
care is important to the administration. I know that now we're 
talking about financial regulation reform, and we may be doing 
immigration reform. We're not focusing on jobs, number one, 
though every other country that I just visited, Afghanistan and 
Pakistan, is.
    I would think that these two bills that are in conference 
committee would be one of the top priorities of the 
administration. I'd like to know what influence or what 
activity the administration is putting on something that I 
think is a vital national security, not only to us, but to the 
rest of the world. I don't know; maybe I'm not privy to the 
information, but what's being done trying to get these bills 
passed, so we can get some real teeth and stop fooling around 
with Iran?
    Ambassador Burns. Senator, we want to continue to work with 
Congress to try to shape that legislation, so it's going to 
have the most effective impact. What I mean by that, sir, is to 
use whatever measures that the United States takes in a way 
that's going to encourage more countries and more companies to 
move out of business with Iran and that's not going to penalize 
those countries that are actually with us and moving in the 
right direction. That's why we want to work with you and your 
colleagues very much to try to achieve.
    Senator Brown. One final question, Mr. Chairman. I recently 
got back from Afghanistan, and one of the major concerns of not 
only the Karzai government, but of our leaders there is the 
influence that Iran is having there. What are some of the 
lessons that you learned in Iraq in curtailing Iranian 
influence that we can use in Afghanistan?
    This is probably best for Secretary Flournoy, I would 
believe.
    Ms. Flournoy. Again, I think that Iran, when its efforts to 
influence have become widely known by the populations it's 
seeking to influence, such as in places like Iraq or 
Afghanistan, those efforts have tended to be rejected. Again in 
Iraq, the reaction has been fairly consistent and strong. I 
think in Afghanistan, they are playing a double game where they 
are providing some support to try to influence the government 
while they're also trying to support and influence elements in 
the insurgency there.
    I think that the more that meddling is exposed, the more it 
is rejected by the population they're trying to win over. I 
think that is a common lesson that will apply in both places.
    Senator Brown. In conclusion, Mr. Chairman, and through the 
people here speaking in front of us, I would just encourage 
more action. Like I said, I hate to keep saying I'm new here, 
but the people in my State, the people in this Country, and the 
people who are directly affected by what's happening in Iran 
are very, very concerned about what's happening there and the 
delay, the delay, the delay, the talking, and the delay.
    At some point, I'm hopeful that the administration will 
make this one of its top priorities and start focusing on the 
security of that region because a nuclear Iran and its ability 
to export terrorism throughout that region and the world should 
make people very, very concerned. I would ask you to pass that 
message to the President, as I plan to do. Thank you.
    Chairman Levin. Thank you, Senator Brown.
    Senator Wicker.
    Senator Wicker. Thank you, Mr. Chairman. There has been a 
general agreement with the statement of Secretary Gates that 
Iran will not have the capacity to build a nuclear weapon for 
at least another year. General Cartwright, I'll begin with you 
and then perhaps General Burgess might also participate in this 
line of questioning.
    I think that the testimony today has been that a year from 
now, it is possible that Iran might have attained the capacity 
to build a nuclear weapon. Is that correct, General Cartwright?
    General Cartwright. I think there are several caveats that 
are associated with that. When we discussed it earlier, it was 
in the context of the ability to produce sufficient fissile 
material for a weapon. It didn't include the assembly, the 
testing, and all the things that go into a weapon. We could get 
into that more in the closed sessions.
    Senator Wicker. Let me try a little more in a public forum. 
Is there anything you can tell us about their ability actually 
to assemble and actually have in their possession a nuclear 
weapon, to be able to deliver that nuclear weapon, or would a 
test be necessary for them to have any confidence level that 
they actually had something there?
    I think the ultimate question on the minds of not only our 
constituents, but of people around the world, is when, based on 
what the Secretary has said publicly, might they have the 
capacity to harm another people?
    General Burgess. Sir, I think, as we said in the earlier 
discussion, they have enough LEU now that, if they further 
process and enrich that that in a year, if they continue to 
take that, they would have enough material for one weapon. I 
think anything further than that in this forum would be too 
much.
    Senator Wicker. Alright. We'll just wait for the closed 
session on that.
    Secretary Burns, you mentioned this scenario in an answer 
to Senator Lieberman's question of actually a nuclear-armed 
Iran and the things we would have to worry about in that 
regard. You mentioned a nuclear arms race, the harm done to the 
credibility of the U.N., and the devastating effect it would 
have on our efforts to prevent terrorist groups. Did I miss 
your saying that there would be the actual possibility of the 
weapon being detonated and actually harming someone in the 
neighborhood? Is there a reason why you did not mention that?
    Ambassador Burns. No, sir. There are many dangers connected 
with a nuclear armed Iran. Obviously, one of those dangers is 
actually the use of a weapon, which would have catastrophic 
consequences.
    Senator Wicker. Are you able in an unclassified setting, 
such as this, to say when you think that ultimate act might 
occur? When might Iran be capable of taking that ultimate act?
    Ambassador Burns. No, sir. I think that's probably better 
left to a closed session.
    Senator Wicker. Ok. Let me ask you then we have had 
optimistic testimony today about a meaningful sanctions 
resolution this spring. It is now April 14. I'm told that Iran 
is not on the U.N. Security Council agenda for April. Is that 
correct? Do we take anything from that, or is it a matter of 
simply changing the agenda on a moment's notice?
    Ambassador Burns. No, sir. What has started in New York is 
a very intensive negotiation amongst the five Permanent Members 
as well as Germany, the so called P5+1, about a new resolution. 
That's very much on the agenda of all of those members right 
now.
    We're going to work as hard and as fast as we can.
    Senator Wicker. Would it mean anything if the matter were 
placed on the official agenda of the U.N.? Would it bring any 
pressure to bear?
    Ambassador Burns. Sir, I leave the tactics to my colleagues 
at our mission in New York. It's a complicated challenge, and 
it's been very difficult in the past because we're talking 
about, of course, not only the 5 Permanent Members, but also 
the 10 elected members.
    We have a great deal of work to do, and I don't want to 
underestimate the challenge. All I can tell you is we have no 
higher priority right now than trying to achieve that.
    Senator Wicker. When we're talking about spring, Mr. 
Chairman, we're talking about April or May. This is a very 
optimistic scenario that you've painted.
    I noticed today in the Los Angeles Times, China insisted on 
Tuesday that it has not shifted its approach on Iran's nuclear 
programs, despite White House claims on Monday that Beijing had 
become more open to sanctions on Tehran. A spokeswoman for the 
Chinese Foreign Ministry, Jiang Yu, told reporters in Beijing 
that, ``China has always believed that sanctions and pressure 
cannot fundamentally resolve the issue.''
    Would you care, Mr. Secretary, to respond to that? Is this 
something different from what you and administration officials 
heard in person from Chinese leaders during the meeting in 
Washington?
    Ambassador Burns. Sir, what I would say is first, the 
Chinese also made clear in that same statement their strong 
support for the dual-track approach, which is not only about 
engagement, but also about pressure.
    Second, they have agreed, after months and months of 
resistance, to engage directly in the negotiation of the text 
of the new resolution.
    Third, I do believe that China is increasingly aware of 
many of the risks that you mentioned before to the stability in 
a part of the world that matters greatly to China and to its 
own economic hopes and hopes for economic growth. China also 
has a stake in the credibility and integrity of the U.N. and 
the nonproliferation regime.
    Senator Wicker. Do you feel that China has, in fact, 
shifted its approach as a result of the last 2 days?
    Ambassador Burns. I do. Simply because up until a few days 
ago, the Chinese were not prepared to engage directly in 
negotiations over a new resolution; now they're participating 
actively in that process.
    Senator Wicker. Lastly, if I might, Mr. Chairman. I see 
there's no one waiting behind me, and there may be follow up 
questions.
    Chairman Levin. There are, but I think Senator Chambliss 
may wish to speak shortly.
    Senator Wicker. If I could ask one question about taking 
things off the table because the chairman began with this. Does 
this, Secretary Flournoy, Nuclear Posture Review take anything 
off the table with regard to our subject matter today?
    Ms. Flournoy. No, it does not, sir.
    Senator Wicker. So, the language on page viii about 
strengthening the longstanding negative security assurance and 
when and where we would use nuclear weapons against non-nuclear 
weapon states that are part of the NPT, do those pertain to any 
country in this region that we're discussing today?
    Ms. Flournoy. The negative security assurance is for a 
pledge that we will not use or threaten to use nuclear weapons 
against a given country and applies to countries who are non-
nuclear, signatories to the NPT, and are in full compliance 
with their NPT obligations. Those are the criteria. In this 
case, Iran does not fit those criteria at this point.
    Senator Wicker. Thank you, sir.
    Chairman Levin. Thank you, Senator Wicker.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    Secretary Flournoy, gentlemen, I think it's pretty obvious 
that there's frustration with respect to this issue. That 
frustration didn't just start with this administration. This 
issue has been ongoing for some time.
    I certainly share the thoughts that Senator McCain 
expressed and Senator Brown obviously expressed also about the 
fact that, in the eyes of the American people, we seem to be 
treading water on this issue while Iran is just sitting back 
and doing their thing and, frankly, almost sticking their 
finger in our eye. It really is, as Senator McCain said in so 
many words, time to quit ratcheting up the rhetoric and start 
ratcheting up the activity.
    If we don't, we're going to look back and all of a sudden 
they're going to have a weapon. I'm not certain with all that 
I've learned over the years that we can do anything to stop 
that now. But, I appreciate what you said, Secretary Burns, 
about the opportunity that may be there.
    Several of us just got back from Vienna and meeting with 
Director General Amano and other folks at the IAEA. Frankly, 
the previous leadership at the IAEA, in my opinion, was no 
leadership at all. It was extremely weak under ElBaradei.
    Director General Amano is really taking this issue on head 
first. It has seemed like he has accomplished more in a few 
weeks than ElBaradei accomplished in several years. I'm hopeful 
that with his help that your optimism may bear fruit.
    Let me direct this to Secretary Flournoy, General 
Cartwright, and General Burgess. How concerned are you that 
Iran has now told us that they are enriching uranium to 20 
percent?
    Ms. Flournoy. I think any steps that Iran takes to go down 
the enrichment path are worrisome. We are concerned about that. 
Even though that is not a weapons grade level, we don't want to 
see them making progress.
    The fact is, they have also been having some technical 
problems with their program, as well.
    Senator Chambliss. Do you think they have the capacity to 
turn that uranium into fuel?
    Ms. Flournoy. Into fuel for power reactors or for weapons 
usable fuel?
    Senator Chambliss. Into weapons.
    Ms. Flournoy. I think that is certainly their aspiration. I 
think if they went down that path we would, at this point in 
time, know about it.
    Senator Chambliss. The IAEA expressed concern to our group 
about military work and design. Certainly that may be somewhat 
explained by work on conventional weapons. But, when you look 
at the combination of this added enrichment, plus their obvious 
work on weapon systems, it seems so.
    General Burgess, maybe I'll direct this to you. Is there 
anything you can tell us about what may be going on with the 
combination of those two factors now in public?
    General Burgess. Sir, that would be better in a closed 
hearing.
    Senator Chambliss. Ok. General Cartwright, could you 
comment on the capabilities of IRGC naval forces, particularly 
as it relates to their ability to deny us access to the Strait 
of Hormuz in-between the Persian Gulf and the Gulf of Oman? 
Several CENTCOM commanders have, in the past, discussed Iran's 
military hardware acquisitions, and the development tactics 
seem to indicate that they might be posturing themselves in a 
manner that would allow them to deny us access to that area.
    General Cartwright. Senator, I think in general terms, they 
are fortifying their capabilities to either reduce or deny 
access or constrict it. The difficulty here is one of tactics 
and objectives. If they close the straits off, they're closing 
off their only supply lines also. This would be a pretty 
significant activity in their calculus. But, to have the 
physical capacity to attempt to do that, they are moving in 
that direction.
    We believe that we would be able to maintain the straits. 
But, it would be a question of time, impact, and the 
implications from a global standpoint on the flow of energy, et 
cetera, would have ramifications probably beyond the military 
actions that would go on.
    Senator Chambliss. General Burgess, when General Petraeus 
was before the committee about 3 or 4 weeks ago, we discussed 
the, at least public, dwindling of influence by the Iranians in 
Iraq. With the election dispute ongoing between Prime Minister 
Malaki and former Prime Minister Allawi, have you determined 
that there may, again, be increased Iranian influence being 
undertaken with respect to the dispute that seems to be ongoing 
internally?
    General Burgess. Sir, we've seen no discernable change in 
the actions. The Iranian folks are still trying to play on the 
ground with the current situation. But, it's the stuff that 
they're doing day to day.
    It would be unfair for me to characterize recent activity 
as if we've seen a change with this latest election piece going 
on.
    Senator Chambliss. How about from a weapon standpoint?
    General Burgess. Sir, there have been no discernable change 
from what we have seen in the past.
    Senator Chambliss. Any change in weapons going into 
Afghanistan that you've noticed out of Iran?
    General Burgess. No, sir. I would say what we have seen in 
the past has been the current tempo. Most recently, we found a 
cache there around Herat, that was found in 2009, with some 
movement of some stuff in Iranian C-4 explosives and some other 
items. I think the Chairman of the Joint Chiefs has talked 
about that up here before.
    Of course, what is unknown is when did it go into the 
country of Afghanistan? We don't know.
    Senator Chambliss. Ok. Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Chambliss. 
We're going to move to executive session, but I want to clarify 
something before we do that. This has to do with the testimony 
you've given us; should Iran make a decision to do so, it could 
produce enough HEU in a year for one weapon. You indicated that 
response to my question and other questions.
    U.S. intelligence agencies, according to Reuters yesterday, 
believe that Iran won't be capable of producing nuclear weapons 
for at least a year. But, it would probably be technically able 
to do so, if it chooses, within 3 to 5 years. Now folks, we 
have to clarify this issue before we leave here today, if we 
can, in public.
    In terms of the HEU, your answer is clear. It would take 
about a year should they decide to do that. To move to 80 
percent or more enrichment, it would take a year or more, about 
a year, to produce enough for one weapon. Okay, we're there 
with the new fuel for a weapon.
    Now, you indicated in terms of putting together a weapon, 
that assembling a weapon is a different issue. We need an open 
session to learn something about that, since intelligence 
officials apparently are indicating that's something more than 
a year now. I know a number of us tried to get this, but help 
us out. Otherwise, your headline tomorrow is Iran can get a 
weapon in a year. That's going to be what's reported, unless 
you clarify that the uranium part of a weapon could be highly 
enriched in a year for one weapon.
    Take the other pieces; tell us what you can, General 
Cartwright, in terms of number one, capability. I'm not sure 
how that's different from what they have now, which is 
capability. But, tell us what you can, should they make a 
decision today to put together a weapon.
    We know the uranium piece of it. Tell us about the weapon 
development piece or what you can, in open session.
    General Cartwright. I think the way I would approach that, 
Senator, is to say there are assumptions we made and talked 
about with the enriched material and getting us out to a year. 
When we look at other examples of development, there is a trend 
that would say that it would take, already having the uranium, 
another 2 to 3, potentially out to 5 years, to move from the 
idea of having the material to a deliverable weapon that is 
usable.
    Chairman Levin. No, I didn't say deliverable. I said put a 
weapon together.
    General Cartwright. Then let's say usable tactically. 
Something that can actually create a detonation, an explosion 
that would be considered a nuclear weapon.
    Chairman Levin. Now, what if this happened simultaneously? 
What if the enrichment to 80 percent or more started tomorrow 
and the decision to assemble a weapon happened tomorrow? Give 
us, then, your estimate of how long it would be before they 
would have a weapon.
    General Cartwright. Again, I can't put that on a particular 
country. In other words, I can't put that on Iran. What I can 
tell you is that experience says that it's going to take you 3 
to 5 years.
    Chairman Levin. Ok.
    Senator McCain. Mr. Chairman, I'd like to pursue that if I 
could. You're saying to this committee that before the Iranians 
would have a deliverable nuclear weapon, it could be as long as 
5 years?
    General Cartwright. Senator, I can't tell you what problems 
they will encounter. I am telling you that, historically, going 
from having sufficient fissile material to a weapon takes that 
time.
    Senator McCain. We're asking for your assessment as to when 
they will have a nuclear weapon that is deliverable because 
that is obviously a very critical point in this entire 
situation. If it's 2, to 3, to 5 years, then that's one thing; 
if it's 1 year, then that's another.
    Also, we seem to uncover from time to time additional 
facilities that the Iranians either have or are constructing. I 
guess that contributes to this dramatic difference between 1 
year and 2, to 3, to 5 years. Every report I've seen is a year 
to 18 months. That's why I'm somewhat astonished to hear you 
say it could be 2, to 3, to 5 years.
    Now, I'm not sure. This doesn't clarify it to me.
    Chairman Levin. We're going to stay here until we get a 
clear answer on this. We have to. Yesterday the headline, 
Reuters, read ``U.S. officials see Iran nuclear bomb probable 
in 3 to 5 years.''
    We're going to go through it again. Leave the deliverable 
part off. That assumes a missile, I think.
    General Cartwright. Right.
    Chairman Levin. Leave that off. If the decision were made 
today, by Iran, to put together a nuclear weapon, we understand 
that it would take 1 year on the HEU. Again, we got it.
    Now, that doesn't put together. That's not the whole 
weapon. They have to put the weapon together, right?
    Should they decide today to do that simultaneously, in 
parallel, to work on the HEU as they work on the assembly, tell 
us what you can from the IC's assessment about how long would 
it take for them to assemble a weapon based on everything you 
know about?
    General Cartwright. Senator, again, you're asking me to 
know things I can't know, but 3 to 5 years is what I would tell 
you.
    Chairman Levin. That is your best assessment?
    General Cartwright. Yes, sir.
    Chairman Levin. Ok. Now in terms of the missile, that's a 
totally separate issue. That's the deliverable part.
    I assume when you say deliverable, is that a different 
factor because they would have to marry a weapon to a missile? 
They'd have to have a missile, and then it depends long-range, 
medium-range, and short-range capability.
    Tell us what you can about the deliverable part, assuming 
that there's a missile involved. Now, they can deliver a weapon 
without a missile tactically, right? You can detonate a weapon 
without a missile. So the 3 to 5 years is the weapon piece.
    Now, adding on the missile piece, what can you tell us 
about that?
    General Cartwright. Again, I would probably tell you, not 
knowing exactly where they are in their capability, that it 
would still take them another 3 years. That does not 
necessarily mean it would be sequential.
    Chairman Levin. Ok. That could be done in parallel, 
theoretically, too. Is that correct?
    General Cartwright. Yes, sir.
    Senator McCain. Ok. Could I just ask again?
    Chairman Levin. Sure.
    Senator McCain. They could develop a nuclear weapon, and 
it's going to be 3 years or longer.
    General Cartwright. A nuclear weapon for a country, 
historically, takes 3 to 5 years.
    Senator McCain. I'm not asking about a country 
historically. I'm asking about Iran.
    General Cartwright. Again, I'd rather take that particular 
question, to get to the exact assumptions, into a closed 
session, Senator. I can tell you that, normally such that that 
is, that with the HEU, you're still dealing in 3 to 5 years to 
create a weapon.
    Chairman Levin. Is that sequential or could that be done 
together?
    General Cartwright. It could be done in parallel.
    Chairman Levin. Which means the 3 to 5 could include the 1 
year for the HEU?
    General Cartwright. Potentially.
    Chairman Levin. Ok. Senator Lieberman?
    Senator Lieberman. Thanks, Mr. Chairman. The obvious point 
to me, as I hear you, is the best we can ask you to do is make 
predictions based on history. Obviously, no one knows or can 
say the future with any certainty.
    But, I just want to come back to something Senator Reed 
referred to, which was my reference quoting President Obama 
yesterday about sanctions not being a magic wand. Senator Reed 
went on to say that military action isn't a magic wand and 
raised the prospect and took you down a road, a hypothetical, 
of the only way we can be certain that we could stop Iran from 
having a nuclear weapon is if we occupied Iran.
    I want to say first, from my point of view, that all 
options are on the table. That's not anything I've heard anyone 
really, seriously talk about. I think what anyone is talking 
about is, if it becomes necessary to use military force to stop 
the unacceptable, which is an Iranian nuclear program, either 
covert action on the ground and/or limited strikes from the 
air, so that whatever might be necessary.
    I just don't want to leave the impression because then 
Senator Reed asked you about what effect the ground invasion of 
Iran or occupation of Iran would have on our activities in Iraq 
and Afghanistan. I don't think anybody is thinking of that. I 
certainly am not.
    I wanted to say one final word about General Burgess' 
prepared testimony. One of the things he also does here is to 
lay out, in very powerful form, how weak the conventional 
military of Iran is. That's very important for us to 
acknowledge.
    General Cartwright, going back to what I just said, do you 
agree that the United States enjoys an overwhelming advantage 
of conventional warfare against Iran including particularly 
with regard to air and naval capability?
    General Cartwright. I do.
    Senator Lieberman. In the event it is needed, and I'm not 
saying anybody is planning to do so, is it within the military 
power of the United States to establish air and naval dominance 
over Iran?
    General Cartwright. It is.
    Senator Lieberman. In the event that we chose to do so, is 
it within the military power of the United States to strike the 
Iranian nuclear program in a way that would seriously disrupt 
and delay it?
    General Cartwright. I'd like to take that to closed 
session.
    Senator Lieberman. Ok, because that's what we're talking 
about here. In the end, the one sure way for Iran to not go 
nuclear is for its people and government to decide not to go 
nuclear. That's where I come back to what President Obama said 
yesterday about sanctions. That's the whole aim of sanctions. I 
quote again, ``what they're aimed at accomplishing is changing 
the calculus of a country like Iran, so they see there are more 
cost and fewer benefits to pursuing a nuclear weapons 
program.'' I might add, for myself, that I think there's a 
higher probability that that calculus will change if they think 
we're serious about all the options that are on the table 
including military. Do you agree with that?
    General Cartwright. I do, Senator. The reason that we 
believe that the sanctions and other measures, short of 
military activity, are important is because they give us more 
time, more decision time, more opportunities to intervene in 
ways that are nonkinetic.
    Senator Lieberman. Understood. I appreciate that. I thank 
you very much.
    Chairman Levin. Can you please describe nonkinetic for the 
layperson?
    General Cartwright. Not requiring military attacks.
    Chairman Levin. Thank you.
    Senator Chambliss.
    Senator Chambliss. I'll direct this to Secretary Burns, but 
anybody else should feel free to respond. It looks to me like, 
Mr. Secretary, you've set your own time table and that is 12 
months. That's the best guess, according to General Cartwright, 
that they could be weaponized.
    If that's the issue that we're going to prevent, then we 
have to have sanctions put in place in time to stop the 
weaponization of Iran within 12 months. Now, that means in my 
mind pretty significant sanctions are going to have to be put 
in place to work within a short period of time. Is there a plan 
in place to work within a short period of time? Is there a plan 
in place with respect to those sanctions that we can talk about 
in this setting?
    Ambassador Burns. Senator, first I'll defer to General 
Cartwright on this, but I don't think we're talking about 
weaponizing in 12 months. The conversations suggest a different 
kind of timeframe for that.
    That does not, however, diminish the sense of urgency we 
feel about putting in place the strongest possible sanctions 
regime. That means using a U.N. Security Council resolution. 
That also means looking at measures we can employ and have 
employed in the past.
    It involves us continuing to push foreign companies to 
sever their ties with Iran in a variety of sectors. We're going 
to keep pushing on all those fronts just as hard as we can and 
as fast as we can.
    Senator Chambliss. Secretary Flournoy, did you want to add 
something?
    Ms. Flournoy. I just wanted to add with regard to the time 
that we have taken for engagement and to work the sanctions 
piece through the U.N. There are steps that we can take 
unilaterally and we have taken unilaterally. But, our judgment 
is that, if we really want to impose pressure on Iran that 
actually affects their calculus, the only way to be effective 
is to do that multilaterally, to have the international 
community with us.
    I think the fact that we made a good-faith engagement with 
Iran has actually brought more of the international community 
with us now that we are moving on the pressure track. The fact 
that we're taking the time to try to get a U.N. Security 
Council resolution will provide the legal and political 
framework that will get us more effective measures by others, 
like the EU, down the road. I think that the timeframe is 
frustrating for all of us, but I think we will be much more 
effective having taken the time to bring the international 
community with us to apply coherent and cohesive pressure on 
Iran.
    Senator Chambliss. Let me go back to General Cartwright. I 
think Senator Levin is right. We need to walk away from here 
with clarity.
    Now, I understood you to say that, in your opinion, Iran 
could have a nuclear weapon within 12 months and, within 3 to 5 
years, they'd have the capability of delivering that. Now are 
you saying something different from that?
    General Cartwright. I am, sir. I'm saying 3 to 5 years is 
an historical estimate of how long it takes a nation with a low 
enriching capability to move both through the high enrichment 
protocols and then to the things that would put it together to 
make it a weapon. That is 3 to 5 years. One year was the 
discussion about how long it would take to produce HEU.
    Senator Chambliss. Ok.
    Chairman Levin. Since I think that's probably the clearest 
summary that we've had, we probably ought to stop and quit 
while we're ahead. [Laughter.]
    This hearing has been very useful to us.
    First of all, we thank you all for coming in, particularly 
Secretary Burns. We know it's not always the case that we have 
a DOS representative here. In this case, it was important. We 
very much appreciate it.
    We hope we've not gone beyond what it is appropriate in our 
questions. We know you wouldn't in your answers for you to 
address. Hopefully the unity of this committee, and I think 
you've heard here how much strength and unity we feel and have 
about this issue, about stopping Iran from getting a nuclear 
weapon, came through today. We hope that that unity that you 
heard here, and the American people will hopefully hear from 
this committee and this Congress, will help you in your efforts 
to gain support internationally for what you're trying to do.
    We hope that's one of the outcomes. We know that 
information is an important outcome for us and the American 
people. It's also important that Iran hear a very strong, 
unified message about Congress standing behind strong measures.
    Hopefully, that will help you in gaining those strong 
measures that can be used without military force. The military 
option has to be there, we believe, but I think most of us, 
maybe all of us, hope for you to succeed in your diplomatic 
efforts as well. It's serious, and there's great unity of 
purpose.
    We thank you all for your testimony. We'll see you right 
after we all run over and vote. There's a vote on the Senate 
floor. We'll see you over in the Office of Senate Security in 
the Capitol Visitor Center in a classified session. We stand 
adjourned in the open session.
    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator Daniel K. Akaka

                           SANCTIONS PLANNING

    1. Senator Akaka. Secretary Burns, President Obama recently stated 
that one of the greatest threats to U.S. and global security is nuclear 
proliferation. Despite previous rounds of sanctions and the threat of 
additional sanctions, Iran has declared that it will continue 
development of its nuclear program. What happens if this round of 
negotiations and sanctions fails to slow or stop Iran's program?
    Secretary Burns. The administration remains committed to its dual-
track strategy, which ultimately presents Iran with two choices: It can 
rejoin the international community economically and politically by 
fulfilling its international obligations under the Nuclear Non-
Proliferation Treaty and to the U.N. Security Council and International 
Atomic Energy Agency (IAEA), or it can face increasing pressure and 
condemnation for its non-compliance.
    At the moment, we are focused on securing broad international 
support for a new U.N. Security Council resolution with meaningful 
sanctions followed by states' adopting additional national measures. We 
believe that these kinds of multilateral measures can most effectively 
underscore to the Iranian Government the cost of defying the 
international community. They are also the most difficult to evade.
    Of course, we continue to work independently and with our allies to 
take measures to deny Iran access to the technology and know-how it 
needs to develop further its nuclear program, and are working with our 
partners to limit Iran's ability to use the international financial 
system to fund its proliferation activities.
    Ultimately, as the administration has said before, all options are 
on the table.

    2. Senator Akaka. Secretary Flournoy, has the Department of Defense 
(DOD) considered how to stop Iran's nuclear program if negotiations for 
sanctions, or if sanctions, fail to stop Iran's nuclear program? Please 
explain what DOD is doing to address Iran's nuclear program and the 
long-term implications for U.S. national security.
    Secretary Flournoy. DOD is committed to supporting the dual-track 
strategy of engagement and pressure and believes it is premature to 
talk about other options. The Department supports the current policy by 
focusing on enhancing regional security cooperation with partners in 
the Middle East. This focus not only reassures anxious states in the 
region, but also sends a clear signal to Iran that pursuit of nuclear 
weapons will lead to its own isolation and in the end make it less--not 
more--secure. In addition, it is the Department's responsibility to 
conduct prudent military planning, but as the Secretary has made clear, 
while all options remain on the table, he does not view use of kinetic 
force as the preferable course of action.

    3. Senator Akaka. Secretary Burns, while U.S.-Iran economic 
relations are limited, the United States has a key interest in Iran's 
relations with other countries. As some European countries have curbed 
trade and investment dealings with Iran, other countries, such as China 
and Russia, have emerged as increasingly important economic partners. 
Iran also has focused more heavily on regional trade opportunities, 
such as with the United Arab Emirates. What courses of action can the 
United States take to encourage others to curb trade and investments 
with Iran with the goal of getting Iran to give up its nuclear weapons 
ambitions?
    Secretary Burns. The United States will continue to make clear to 
the international community--both to governments and private sector--
that Iran is not a good place to do business. As part of our efforts to 
increase the pressure on Iran to change its leadership decisionmaking 
calculus, the U.S. Government has actively engaged with foreign 
governments and companies to urge them to avoid commercial activity 
with Iran. These efforts are bearing fruit, as we are seeing a positive 
trend of companies recognizing the increased risks of doing business in 
or with Iran and announcing that they are either discontinuing their 
operations there or committing not to engage in any new activity with 
Iran. So far this year, more international firms have announced they 
are leaving Iran or undertaking no new business, than in the last 5 
years combined. These companies include Ernst & Young, Price Waterhouse 
Coopers, Lloyds, ABB Ltd., Caterpillar, Daimler AG, the Huntsman 
Corporation, Ingersoll Rand, Linde, Siemens, Allianz, Munich Re, Baker 
Hughes, ENI Spa, IPG, Glencore, Lukoil, Reliance Ltd., Smith 
International, Trafigura, Vitol, and Total. Repsol also recently 
informed us that they are abandoning their negotiations over a $10 
billion project in the South Pars gas field.

    4. Senator Akaka. Secretary Burns, I understand that the 
administration is currently working with the United Nations Security 
Council (UNSC) Permanent Five Members Plus Germany (P-5+1) to establish 
sanctions against Iran in an attempt to compel Iran to abandon its 
nuclear weapons ambitions. However, P-5+1 countries maintain 
significant trade and financial interests with Iran. In today's 
challenged world economy, these interests are all the more significant. 
Given these significant trade and financial relationships, how can the 
United States ensure that potential UNSC sanctions have the best chance 
of success? Please describe any efforts the Department of State (DOS) 
is undertaking in this regard.
    Secretary Burns. The most effective sanctions are those that have 
the broadest international support. These can most effectively 
underscore to the Iranian Government the costs of defying the 
international community. They are also the hardest to evade.
    We have been very clear in our message to both foreign governments 
and the international commercial sector that there are risks to doing 
business in Iran, especially as it continues to violate its 
international obligations on multiple fronts. We have seen that a 
number of companies are responding to the increased political risk of 
doing business in Iran. We will continue to be aggressive in our 
efforts on this front, as well as current efforts to impose additional 
accountability on Iran through expanded multilateral sanctions.

                             AMERICAN IMAGE

    5. Senator Akaka. Secretary Burns, public diplomacy is an important 
complement to traditional diplomacy in states like Iran, where large 
and youthful populations are frustrated by the government's failure to 
produce opportunities. What are your views on increasing the budget for 
U.S. radio, Internet, and video broadcasting to Iran and the 
possibility of cultural exchanges?
    Secretary Burns. With nearly three quarters of Iran's population 
under the age of 30, the vast majority of people living in the Islamic 
Republic were born after Ayatollah Khomeini's rise to power and most 
were only toddlers during the Iran-Iraq war. As a result, this new 
generation's perception of their place in the world is fundamentally 
different from that of their parents' generation. It is clear that the 
Internet and new media tools are playing an integral role in connecting 
Iranians to each other and to the outside world, as well as providing a 
unique tool for Iranians to hold their government accountable.
    The Department's Persian Digital Outreach Team is actively 
utilizing innovative approaches to reach Iranian youth through social 
networking and connective technologies. We post material on U.S. 
policy, Iran-U.S. relations, and American society on a wide variety of 
Persian-language web forums, blogs, and social media platforms such as 
Facebook, YouTube, Friendfeed, and Twitter that are widely used in 
Iran. Our social media presence reaches Iranian youth of various 
political views and ensures that the United States is represented in 
new media and conversation spaces. Additional resources would allow the 
State Department to broaden existing programs and explore innovative 
ways to leverage social networking tools and the traditional media to 
maximize the effectiveness of our diplomatic initiatives.
    The Broadcasting Board of Governors (BBG) media programming for 
Iran, including the Voice of America's Persian News Network (PNN) and 
Radio Free Europe/Radio Liberty's Radio Farda, are among the very few 
Persian-language media outlets where the Iranian people can receive 
uncensored, unbiased, and current news and information. After the June 
2009 elections in Iran, additional broadcasts were added as a temporary 
surge. The administration's request for fiscal year 2011 fully supports 
the pre-surge funding levels for Radio Farda and the PNN. The BBG 
expects to evaluate the situation in Iran going forward in fiscal year 
2011, and will prioritize programming accordingly.

    6. Senator Akaka. Secretary Burns, do you believe that additional 
media and exchange initiatives would help change the U.S. image 
presented to young Iranians by their government?
    Secretary Burns. Given the lack of diplomatic ties with Iran for 
more than 30 years and the Iranian Government firm grasp over all forms 
of media, we are currently limited in our ability to influence how the 
government of Iran portrays the United States to its citizens. In light 
of this, we must continue efforts to directly engage the Iranian people 
so that their image of the United States is based on engagement with 
us, rather than what they are told by their government. Continued and 
enhanced people-to-people exchanges help fight misinformation, build 
cooperation, and lay the foundation for improved relations between the 
United States and Iran. We also need to continue expanding the use of 
social networking and connective technologies to not only get our 
message out but to also engage with the Iranian people via digital 
platforms.
    Allocating additional resources would allow us to respond more 
effectively to the demographic shift in Iran by ramping up our digital 
outreach efforts in Persian, expanding engagement with Iranian youth, 
and improving our ability to rapidly respond to Iranian misinformation 
campaigns using multiple media platforms.

                            MISSILE DEFENSE

    7. Senator Akaka. General Cartwright, the administration modified 
its missile defense plans in the fall of 2009 to now include the Phased 
Adaptive Approach. Please provide your thoughts on the potential 
utility of the systems developed for this new approach with respect to 
our Iran policy and the previous missile defense approach.
    General Cartwright. One of the key factors in changing our approach 
to European missile defense was updated assessment of the threat, 
specifically from Iran. The Phased Adaptive Approach and the land-based 
SM-3, or ``Aegis Ashore'' systems being developed were chosen for their 
ability to better defend against threat missiles originating in Iran. 
The first envisioned role of Aegis Ashore is defense of our forces, 
allies, and partners in Europe, and this new system will do that with 
greater effectiveness than the previous approach of two-stage Ground-
Based Interceptors stationed in Europe. This effectiveness will be 
measured in both the capacity of the Aegis system's larger quantity of 
interceptors to respond to more threat missiles, as well as the 
system's ability to defend against the medium-range ballistic missiles 
which comprise the most immediate threat to Europe. Additionally, these 
capabilities are scheduled to be available in the 2015 timeframe, 3 
years earlier than in the previous approach. These capabilities will 
contribute to the overall effort to deter Iranian aggression.
                                 ______
                                 
            Questions Submitted by Senator Claire McCaskill

     RELATIONSHIPS WITH NEIGHBORS AND SUPPORT FOR TERRORIST GROUPS

    8. Senator McCaskill. Secretary Burns, Iran has a history of 
projecting its regional influence by strong-arming weaker countries in 
the region or inserting itself into the political affairs of countries 
such as Iraq and Afghanistan to throw off the efforts of the United 
States. I am particularly concerned about its role with neighbors 
Afghanistan and Pakistan. How would you characterize the relationship 
between Pakistan and Iran at this time?
    Secretary Burns. While I cannot speak for other governments, as 
neighbors with economic, cultural, and religious ties, Iran and 
Pakistan both seem interested in maintaining a cordial relationship. 
Within the Pakistan-Afghanistan-Iran trilateral framework, both 
countries have exchanged views and agreed to coordinate their positions 
to support peace, stability, and development in Afghanistan. The 
Pakistan-Iran relationship, however, is strained by a number of 
competing interests. Ongoing differences over the future of Afghanistan 
cause tension, as does Pakistan's concern that Iran seeks to promote 
its sectarian Shiite socio-political model in Pakistan's Shia 
communities. Iran, for its part, fears Pakistan's relationship with 
elements of the Taliban. Iran is also troubled by Pakistan's ties with 
the West, particularly by the security relationship between our two 
nations.

    9. Senator McCaskill. Secretary Burns, how would you characterize 
the relationship between Afghanistan and Iran at this time?
    Secretary Burns. Iran pursues multiple agendas in Afghanistan, 
where it has strong historical, cultural, and economic ties. The 
Iranian economy has long been intertwined with the northern and western 
Afghanistan economy, and Iran has engaged significantly in Afghan 
politics since the Bonn Conference of 2001, in which it played a 
constructive role in encouraging the formation of an interim 
government. Iran's overall role is ambiguous, however, as it also 
pursues policies that undermine U.S. and NATO efforts in Afghanistan. 
While it provides constructive development assistance, we continue to 
receive reports that indicate Iran may also be providing military 
assistance to some insurgents.

    10. Senator McCaskill. Secretary Flournoy, Secretary Burns, General 
Cartwright, and General Burgess, is Iran exacerbating the difficulties 
the United States and its partners face on the Afghanistan-Pakistan 
border?
    Secretary Flournoy. Iran is playing a double game in Afghanistan. 
It provides rhetorical and material support for the Afghan Government 
while also providing sustained material support to insurgents, thus 
impeding U.S. and allied efforts to stabilize the country. Tehran 
generally sees the Taliban as an enemy and does not want to see them 
back in power. Nevertheless, Iran has provided limited lethal 
assistance to the Taliban to hedge against increased U.S./Western 
presence on its eastern border.
    Secretary Burns. According to Afghanistan authorities, Iran has 
increased its cooperation with Afghan border guards to improve security 
on its border with Afghanistan. We, however, remain concerned that Iran 
has provided lethal support to elements of the Taliban, which is used 
against Afghan and NATO security forces, and international and Afghan 
civilians. Apart from these indications of support to the Taliban, we 
have no indications of significant Iranian activity along the Pakistan-
Afghanistan border. We will continue to call on Iran to cease all such 
destabilizing support and work with Afghanistan forces to better deter, 
detect, and disrupt illicit border activities.
    General Cartwright. Iran is playing a double game in Afghanistan. 
It combines rhetorical and material support for the Afghan government 
while providing a continuing amount of material support to insurgents 
thus impeding U.S. and allied efforts to stabilize the country. Tehran 
generally sees the Taliban as an enemy and does not want to see them 
back in power. Nevertheless, Iran has provided limited lethal 
assistance to the Taliban to hedge against increased U.S./Western 
presence on its eastern border.
    General Burgess. [Deleted.]

    11. Senator McCaskill. Secretary Flournoy, Secretary Burns, General 
Cartwright, and General Burgess, how would you characterize Iran's 
relationship with the Afghan Taliban, so-called Pakistani Taliban, 
Haqqani network, and other Pakistan-based terrorist groups?
    Secretary Flournoy. Iran continues to provide lethal assistance to 
the various elements of the Afghan insurgency. Tehran's support for 
these groups is inconsistent with its historic enmity, but fits with 
Iran's overall strategy of backing many groups to ensure a positive 
relationship with potential leaders, and hedging against foreign 
presence. However, ultimately because it does not share the same 
historic ties and ideological goals Iran does not have the same type of 
relationship with Afghan insurgent groups as it does with surrogates 
such as Shia militants in Iraq or Hezbollah in Lebanon.
    Secretary Burns. As a predominantly Shia country, Iran has an 
ambivalent relationship with the militant Sunni Taliban. It also 
remembers the 1998 murder of eight Iranian diplomats by the Taliban in 
Mazar-i-Sharif as well as Taliban atrocities against the Shia Hazara 
population of Afghanistan. While Iran has no interest in seeing the 
Taliban insurgency succeed, they are also uneasy about the large U.S. 
and NATO military presence on Iran's eastern border and do provide 
tactical support to select Taliban as a means to make this presence 
costly for the United States and our allies.
    Iran's primary instrument for providing lethal support to the 
Taliban is the Islamic Revolutionary Guards' Qods Force, an element of 
the Iranian Government. This same organization provides weapons and 
training to the terrorist Hizballah organization and to select groups 
of Shia militants in Iraq.
    General Cartwright. [Deleted.]
    General Burgess. [Deleted.]

                            DRUG TRAFFICKING

    12. Senator McCaskill. Secretary Flournoy and General Cartwright, 
Afghanistan's opium trade that emanates throughout Asia, Europe, and 
elsewhere is a significant problem that vexes the U.S. Government. 
Iran, too, is wrestling with its own serious illegal drug issue; the UN 
estimates it has over 2 million addicts. Moreover, Iran is also a major 
transit route for drugs emanating from Afghanistan, many of which are 
bound for use in Europe. Given our non-normalized state of relations 
with Iran, how does DOD factor Iran into our regional counter-narcotics 
strategy?
    Secretary Flournoy. The current interdiction effort in Afghanistan 
should result in fewer opiates exporting through Iran. We have 
bolstered the border crossing point in Islam Qalah in the northwest 
region of Afghanistan bordering Iran. Iran has made significant efforts 
to counter the drug flow coming from Afghanistan and has strengthened 
its borders with Afghanistan to bolster their efforts. DOD looks to DOS 
for diplomatic engagement with Iran on these issues during Paris Pact 
and United Nation meetings.
    General Cartwright. The current interdiction effort in Afghanistan 
should result in fewer opiates exporting through Iran. We have 
bolstered the border crossing point in Islam Qalah in the northwest 
region of Afghanistan bordering Iran. The Department looks for ways to 
coordinate counternarcotic efforts with Iran, but given the current 
relationship between our two countries, it is difficult. Iran has made 
significant efforts to counter the drug flow coming from Afghanistan 
and has strengthened its borders with Afghanistan to bolster their 
efforts.

    13. Senator McCaskill. Secretary Flournoy and Secretary Burns, how 
are we addressing Iran's role as a transit point for opium emanating 
from Afghanistan?
    Secretary Flournoy. DOD has not focused specifically on Iran as a 
transit zone for Afghan opiates. DOD is, however, working with 
bordering nations, including Turkmenistan, Pakistan, and Turkey, to 
curb the flow of Afghan opium entering Europe and Asia. A whole-of-
government approach, focusing on diplomacy, needs to be taken to 
address this issue.
    Secretary Burns. We are working with Afghanistan to build a border 
security force that has the manpower and resources to enhance border 
monitoring, detection, and disruption capabilities. In addition, we 
work closely with Iran's other neighbors, particularly Turkey and the 
Central Asian states, on border security and narcotics interdiction.

    14. Senator McCaskill. Secretary Flournoy and Secretary Burns, 
although Iran has an obvious national interest in fighting the flow of 
drugs, does the Iranian state profit in any way from the illicit drug 
trade?
    Secretary Flournoy. [Deleted.]
    Secretary Burns. The Iranian Government has taken aggressive 
actions to interdict the flow of drugs on its border, and the Iranian 
Government does not, as a matter of policy, encourage or facilitate 
illicit production or distribution of narcotic or psychotropic drugs or 
other controlled substances, or the laundering of proceeds from illegal 
drug transactions. That said, we cannot rule out the possibility that 
corrupt government officials may be taking advantage of the drug trade 
to line their pockets.

    15. Senator McCaskill. Secretary Flournoy and Secretary Burns, how 
are DOD and DOS working with other regional actors, such as 
Turkmenistan, to address the issue of drug trafficking through Iran?
    Secretary Flournoy. The U.S. Embassy Ashgabat has an internal 
counternarcotics working group consisting of State International 
Narcotics and Law Enforcement, State Political/Economics, State Export 
Control and Border Security (EXBS), and DOD representatives. This 
working group provides the Deputy Chief of Mission recommendations for 
counternarcotics programs and projects. As a result of this working 
group's efforts, and DOD counternarcotics funding, construction was 
completed on a border crossing point at Altyn Nasir. Moreover, there is 
funding in fiscal year 2010 to construct a second border crossing point 
at Sarahs. Both border crossing points are on the Iranian border. DOD 
counternarcotics has also provided training, scanning equipment, and 
radio communications equipment. In fiscal year 2010 DOD will continue 
to provide training and additional communications equipment.
    DOD counternarcotics also supports counternarcotic efforts in 
Pakistan, building naval forces capacity to detect, monitor, and 
interdict drug shipments along the Makron Coast, some of which are 
headed for Iran.
    Secretary Burns. The State Department's bilateral assistance 
programs in Central Asia foster border security, law enforcement, and 
counternarcotics efforts that contribute to a regional solution to the 
Afghanistan-origin drug trafficking problem. Implementing partners 
include the U.N. Office on Drugs and Crime (UNODC), the International 
Organization for Migration (IOM), and various U.S. Government agencies. 
The U.S. Government appropriated over $7 million toward 
counternarcotics programming in Turkmenistan in fiscal year 2009. DOS's 
EXBS program works to develop the capacities of border officials and 
facilities in Central Asian countries. The State Department Bureau of 
International Narcotics and Law Enforcement Affairs works to develop 
the capacity of law enforcement agencies in the region to interdict 
narcotics and investigate drug-related crime, in cooperation with 
national governments and the UNODC. On a multilateral level, the U.S. 
Government has provided $3.8 million over 10 years for the development 
of the Central Asian Regional Information and Coordination Center, an 
information-sharing and operational coordination body that targets drug 
trafficking in the region.
    The State Department and DOD also work closely in Turkmenistan to 
improve the capabilities of Turkmenistan's border guard to interdict 
narcotics along the Turkmen-Iranian border. DOD funded the construction 
of the Altyn Asyr border checkpoint, a main commercial port-of-entry on 
the Turkmen-Iranian border. In addition, the State Department has 
funded UNODC to conduct training of border guards and customs officers 
at this port-of-entry. DOD and State have followed a similar 
construction/training model at ports-of-entry at the Turkmen/Afghan and 
Turkmen/Uzbek borders. Additionally, U.S. Central Command has provided 
$1.875 million in communications equipment toward counternarcotics 
efforts along Turkmenistan's borders.

    16. Senator McCaskill. Secretary Flournoy, Secretary Burns, and 
General Burgess, do we have effective drug detection and interdiction 
capabilities along the Afghan-Iranian border?
    Secretary Flournoy. Drug detection and drug interdiction are 
primarily law enforcement missions. However, DOD requested funding in 
fiscal year 2010 for a border crossing facility at Zaranj on the border 
with Iran, and we recently expanded Afghan Border Police training to 
cover Afghan policemen from Regional Command West at a training site in 
the village of Shouz. That site will train up to 3,700 Afghan Border 
Police personnel per year, many of whom will be posted on the Afghan 
border with Iran. As the lead agency for drug interdiction, the Drug 
Enforcement Administration may be able to provide additional 
information on its interdiction operations along the Afghan-Iranian 
border.
    Secretary Burns. The State Department is working with the Afghan 
Government to improve its drug detection and interdiction capabilities 
along the Afghan-Iran border, including efforts to build a border 
security force that has the manpower and resources to enhance border 
monitoring, detection, and disruption capabilities. The Department also 
encourages regional and multilateral initiatives, such as the UNODC's 
Triangular Initiative, which is designed to strengthen border control 
cooperation between Afghanistan, Iran, and Pakistan. I would refer you 
to DOD for further specific information on their work in the area.
    General Burgess. [Deleted.]

    17. Senator McCaskill. Secretary Flournoy and Secretary Burns, has 
there been any cooperation with Iran on the issue of drug interdiction, 
either through the Afghans or through other third-party actors?
    Secretary Flournoy. Historically, Iran, Pakistan, and Afghanistan 
do not conduct coordinated counternarcotic operations, although these 
countries have recently formed a partnership called the Triangular 
Initiative to improve their efforts to combat narcotics trafficking. We 
support increased cooperation among these countries on counternarcotic 
efforts.
    Secretary Burns. The United States does not have any direct, 
bilateral cooperation with Iran on drug interdiction in the Afghan 
border area. However, the U.S. Government has engaged Iran on drug 
interdiction efforts in multilateral forums such as the March 2010 
meeting of the U.N. Commission on Narcotic Drugs, which was chaired by 
Iran. We also work on narcotics interdiction efforts directly with 
Iran's neighbors, such as Afghanistan, Turkey, and the Central Asian 
states, and in various regional forums like the Triangular Initiative, 
which in turn engage Iran directly on these issues. In Afghanistan, for 
example, we have worked with that nation's government to build a border 
security force that has the manpower and resources to enhance border 
monitoring, detection, and disruption capabilities.

                           IRAN SANCTIONS ACT

    18. Senator McCaskill. Secretary Flournoy, the Iran Sanctions Act 
(ISA) was supposed to penalize companies doing business with the 
Iranian regime and supporting the Revolutionary Guard in particular. 
However, the U.S. Government has not enforced the ISA, in part due to 
concerns about reaction from allies. At the same time, DOD has spent 
millions on contracts with foreign and U.S. firms that violate the ISA. 
I realize that DOD and DOS are making some progress in dissuading some 
companies from doing business with Iran, but I feel like we have a long 
way to go for a robust enforcement of the ISA. Does DOD currently have 
contracts with companies who could be considered in violation of the 
ISA? If so, please provide a listing of these companies and reasoning 
as to why there is need for contracting with these companies.
    Secretary Flournoy. We are concerned that the proposed Iran 
sanctions language in the fiscal year 2010 supplemental bill does not 
contain a presidential waiver provision for national security 
interests. As drafted this could seriously degrade DOD's ability to 
provide fuel support to military operations, including in Iraq and 
Afghanistan. DOD awards contracts to affiliates of BP, Shell, ENI, and 
Total, all of which are listed on the DOE/EIA website as doing business 
in Iran. Under the bill as currently written, these would become 
prohibited sources. While the contracts awarded to these firms 
represent less than 20 percent of the total contracts awarded by 
Defense Energy Support Center, they represent critical support in 
critical locations. For example, Shell is the supplier of JP-5 for the 
east gulf coast; Total holds 66 percent of the into-plane contracts for 
Africa and is the only source of aviation gasoline outside the United 
States. We are also concerned about the impact of Iran sanctions 
legislation on Turkish firms that truck fuel into Iraq, and on the 
Kuwaiti national oil company that supplies the majority of the fuel for 
operations in Iraq.

    19. Senator McCaskill. Secretary Flournoy, does DOD have structures 
in place to vet companies for violations of ISA or other sanctions?
    Secretary Flournoy. The Defense Logistics Agency, which is DOD's 
largest logistics combat support entity, and provides worldwide 
logistics support to the military services as well as several civilian 
agencies and foreign countries, uses Federal Acquisition Regulation 
25.1103(a) to vet companies who violate the ISA or other sanctions. 
This regulation requires insertion of the following clause into every 
solicitation, contract, and subcontract: ``(a) Except as authorized by 
the Office of Foreign Assets Control (OFAC) in the Department of the 
Treasury, the Contractor shall not acquire, for use in the performance 
of this contract, any supplies or services if any proclamation, 
Executive order, or statute administered by OFAC, or if OFAC's 
implementing regulations at 31 CFR chapter V, would prohibit such a 
transaction by a person subject to the jurisdiction of the United 
States. (b) Except as authorized by OFAC, most transactions involving 
Cuba, Iran, and Sudan are prohibited. . . . Lists of entities and 
individuals subject to economic sanctions are included in OFAC's List 
of Specially Designated Nationals and Blocked Persons. . .''
    DLA contracting officers are required to check the list of 
Specifically Designated Nationals before awarding a contract in order 
to verify that the offeror and offeror's negotiators are not on the 
list.
                                 ______
                                 
               Questions Submitted by Senator Mark Begich

                      COMPANIES OPERATING IN IRAN

    20. Senator Begich. Secretary Burns, which energy companies and 
banks still do business in Iran?
    Secretary Burns. Given the large size of the global energy sector 
and our lack of an embassy presence in Iran, we do not have a 
comprehensive list of all of the energy companies that do business in 
Iran. Both the Government Accountability Office and the Congressional 
Research Service have published reports on companies doing business in 
certain parts of the energy sector. It is important to note, though, 
that these reports often rely on open source reporting, which we have 
found to be sometimes unreliable with respect to Iran. Furthermore, as 
you likely know, pursuant to our statutory obligations under the ISA, 
we track and monitor all of the major upstream development activities 
that could trigger sanctions under the act. The ISA has been a 
particularly useful tool which has been used to convince foreign 
companies to consider their interests in the United States when making 
decisions about participating in oil and gas development projects in 
Iran. We have convinced a significant number of companies to reduce or 
terminate their dealings with Iran in order to avoid additional 
scrutiny by our government. Partially as a result of our coordinated 
and comprehensive efforts, major international oil companies including 
Total, Statoil, ENI, Lukoil, and others have publicly committed not to 
undertake any new activities in Iran at this time. Repsol also recently 
informed us, but have not announced publicly, that they have taken the 
decision to discontinue their participation in the Persian LNG project. 
Other companies such as Shell, Reliance, Vitol, Trafigura, Glencore, 
and IPG have announced that they will no longer sell refined petroleum 
products to Iran.
    With respect to the banks that are doing business in Iran we would 
refer you to the Department of Treasury, which is the agency that 
tracks this sector most closely.

    21. Senator Begich. Secretary Burns, which companies have recently 
abandoned operations in Iran due to U.S. or international pressure?
    Secretary Burns. The United States is making clear that Iran is not 
a good place to do business. As part of our efforts to increase the 
pressure on Iran and change the Government of Iran's decisionmaking 
calculus, the U.S. Government has actively engaged with foreign 
governments and companies to urge them to avoid commercial activity 
with Iran. These efforts are bearing fruit, as we are seeing a positive 
trend of companies recognizing the increased risks of doing business in 
or with Iran and announcing that they are either discontinuing their 
operations there or committing not to engage in any new activity with 
Iran. So far this year, more international firms have announced they 
are leaving Iran or undertaking no new business, than in the last 5 
years. These companies include Ernst & Young, Price Waterhouse Coopers, 
Lloyds, ABB Ltd., Caterpillar, Daimler AG, the Huntsman Corporation, 
Ingersoll Rand, Linde, Siemens, Allianz, Munich Re, Baker Hughes, ENI 
Spa, IPG, Glencore, Lukoil, Reliance Ltd., Smith International, 
Trafigura, Vitol, and Total. Repsol also recently informed us that they 
are abandoning their negotiations over a $10 billion project in the 
South Pars gas field.

                          IMPACT OF SANCTIONS

    22. Senator Begich. Secretary Burns, what U.N. sanctions have been 
imposed on Iran?
    Secretary Burns. Since 2006, Iran has been under international 
sanctions for failing to comply with U.N. Security Council resolutions 
that require it, primarily but not exclusively, to suspend its 
enrichment of uranium. The process of imposing Security Council 
sanctions came after a 2006 ``referral'' of the issue to the Council by 
the IAEA.
    U.N. Security Council Resolution 1737, adopted about 6 months after 
the formation of the P5+1 working group on Iran's nuclear program, was 
the first U.N. resolution to actually impose sanctions on Iran for its 
refusal to suspend the enrichment of uranium and to meet other Security 
Council demands. Most significantly, 1737 sets up a process whereby the 
Security Council designated Iranian entities and persons as involved in 
its weapons of mass destruction (WMD) programs, and mandates U.N. 
member states freeze the assets on their territories that are owned or 
controlled by these entities. This list of designated entities was 
expanded in subsequent U.N. Security Council resolutions.
    U.N. Security Council Resolution 1747 was adopted to further 
tighten international sanctions on Iran because of its refusal to meet 
the demands of previous resolutions, particularly the requirement that 
Iran suspend enrichment of uranium. It added a large number of entities 
and Iranian persons, mostly Revolutionary Guard commanders, subjected 
to those sanctions specified in Resolution 1737. UNSCR 1747 is also 
significant in that, in Annex II, it presents an incentive package to 
Iran, agreed by the P5+1 to try to induce Iran to comply. That package 
of incentives was further enhanced in June 2008. In addition, this 
resolution expanded sanctions beyond those applying directly to the 
nuclear program by banning Iran's export of arms. U.N. Security Council 
Resolution 1803, adopted March 3, 2008, imposed additional new 
sanctions on Iran. Resolution 1803 was particularly significant for 
imposing a mandatory ban on travel by certain Iranian persons named in 
Annex II to the resolution, going beyond the purely voluntary ban on 
travel imposed in Resolution 1747. Resolution 1803 also gave U.N. 
member states the authority to inspect cargo carried by Iran Air Cargo 
or the Islamic Republic of Iran Shipping Line if there is reason to 
suspect the vehicles operated by these entities are carrying WMD or 
other prohibited technology to Iran. Other measures, such as 
restricting export credits to Iran and ending dealings with several 
Iranian banks, are stipulated in the resolution but are not mandatory.
    A subsequent resolution, 1835, reiterated the international 
community's insistence on Iranian compliance, but did not add any new 
sanctions.

    23. Senator Begich. Secretary Flournoy, Secretary Burns, General 
Cartwright, and General Burgess, has there been any notable changes to 
Iranian conduct after past enactment of sanctions?
    Secretary Flournoy. Sanctions are an imperfect tool and by no means 
a silver bullet. However, they do have both a material and 
psychological effect, particularly when they have broad international 
support. As such, I believe that if effectively targeted and leveraged, 
sanctions will have a substantial effect on the Iranian leadership's 
calculus. Whether that effect will bring Iran back to the negotiating 
table or convince it to make material concessions on its nuclear 
program remains to be seen.
    Secretary Burns. We believe that our multilateral efforts over the 
past several years have had an impact on Iran, which we seek to amplify 
through additional pressure. Past IAEA and UNSC resolutions have been 
effective in restricting Iran's access to materials, equipment, and 
technology that would make a material contribution to its nuclear 
program. These sanctions have also underscored the danger of business 
dealings with a country that stands in serial violation of its 
international obligations. As a result, dozens of businesses over 
several years have withdrawn from business in Iran, increasing Iran's 
isolation from international financial centers and trade.
    General Cartwright. I will have to defer to Secretary Burns to 
provide a competent answer on this point. I am unable to state if there 
have been changes in Iranian conduct after sanctions were enacted.
    General Burgess. [Deleted.]

                SENATE VERSION OF NEW IRANIAN SANCTIONS

    24. Senator Begich. Secretary Flournoy and Secretary Burns, does 
the administration support the Dodd-Shelby Comprehensive Iran 
Sanctions, Accountability, and Divestment Act (S. 2799)?
    Secretary Flournoy. The administration does not support the 
legislation as currently drafted but shares Congress's concerns and 
sense of urgency, and welcomes tools that will increase the pressure on 
Iran to meet its international obligations. The administration has 
already shared a number of ideas with Congress on changes it would like 
to see to the legislation, and we look forward to continuing to work 
with Congress to craft an appropriate way to achieve these common 
objectives.
    Secretary Burns. We believe that Congress and the administration 
share the objective of achieving Iran's compliance with U.N. Security 
Council Resolutions and the NPT. Accordingly, we have been working with 
the appointed Senate and House conferees to craft an appropriate way to 
achieve these objectives as the legislation goes through conference. 
Our goals remain the same: to change Iran's decisionmaking on its 
nuclear program, to keep our international coalition together so that 
Iran sees clearly the unity it faces, and to maintain the President's 
flexibility to conduct foreign policy.
                                 ______
                                 
            Questions Submitted by Senator George S. LeMieux

            TERRORIST NETWORKS IN SOUTH AND CENTRAL AMERICA

    25. Senator LeMieux. Secretary Burns, one of my great concerns is 
the partnership developing between Iran and Venezuela. In an indictment 
earlier this year, a Spanish judge accused the Basque separatist group 
Euskadi Ta Askatasuna (ETA) and the narco-terrorist organization based 
in Colombia, Revolutionary Armed Forces of Colombia (FARC), of plotting 
to kill Colombian politicians in Spain with Venezuelan governmental 
cooperation. I am concerned that these terrorist groups could use the 
networks employed by organized crime organizations, drug traffickers, 
and narco-terrorists such as the FARC to smuggle terrorists or 
materials to support terrorism into the United States. What specific 
measures has the administration taken in the last 12 months to ensure 
Iranian ties with the Venezuelan Government do not facilitate 
operations by Hezbollah and Hamas in South and Central America?
    Secretary Burns. We are concerned with the increasing links between 
Iran and Venezuela and will continue to monitor this relationship 
closely. While we see a growing Iranian interest in and engagement with 
Venezuela, at this time, it appears to be largely diplomatic and 
commercial. As with any country, we fully expect Venezuela to meet its 
own international responsibilities and obligations, such as the U.N. 
Security Council's strict prohibition on trade in certain goods with 
Iran.
    Where merited, we have taken targeted actions including: In October 
2008, the Treasury Department designated both the Export Development 
Bank of Iran and its wholly-owned subsidiary in Caracas, Banco 
Internacional de Desarrollo, CA, for providing or attempting to provide 
financial services to Iran's Ministry of Defense and Armed Forces 
Logistics. This designation prohibits all transactions between the 
designees and any U.S. person, and freezes any assets the designees may 
have under U.S. jurisdiction. In June 2008, Treasury froze the assets 
of two Venezuelans for providing financial and other support to 
Hezbollah.

                            GREEN REVOLUTION

    26. Senator LeMieux. Secretary Burns, what assistance is the United 
States or relevant nongovernmental organizations providing the Green 
Revolution in Iran?
    Secretary Burns. In addition to the moral support we lend activists 
working for civil rights in Iran, we continue to quietly help Iranians 
acquire the tools to create the space--on the Internet, in journalism, 
and in the arts--where free thought and expression can flourish. Since 
2004, the State Department has supported projects to help Iranian civil 
society make its voice heard in calling for greater freedoms, 
accountability, transparency, and rule of law from its government. 
However, we do not fund political parties, movements, or factions. As 
the President has said, we are not interfering in the debate Iranians 
are having about their election and its aftermath. This is a debate 
among Iranians, about Iran's future.
    Respecting the sovereignty of Iran, however, does not mean our 
silence on issues of fundamental rights and freedoms, such as the right 
to peacefully protest.

    27. Senator LeMieux. Secretary Burns, do you see the Green 
Revolution in Iran as a strategic opportunity for substantive change 
for the Iranian people?
    Secretary Burns. It is still too early to tell what lasting impact 
the Green Movement will have on Iran's internal political dynamics, but 
prospects for reform remain uncertain. While we have not seen large-
scale protests by the Green Movement in several months, deep rifts 
between the government and much of the public, and between various 
factions within the government, continue to persist. Unfortunately, we 
have not seen an end of the government's repressive tactics to stifle 
dissent or criticism.

                            IRANIAN MILITARY

    28. Senator LeMieux. General Cartwright, Secretary Clinton recently 
commented that the Iranian military is probably playing a significant 
role in running Iran. ``We see that the Government of Iran, the supreme 
leader, the president, the parliament, is being supplanted, and that 
Iran is moving toward a military dictatorship. Now, that is our view.'' 
What is your assessment of the role the Iranian Revolutionary Guard 
currently plays in governing the country?
    General Cartwright. [Deleted.]

                 PURSUIT OF NUCLEAR WEAPONS TECHNOLOGY

    29. Senator LeMieux. Secretary Flournoy, Secretary Burns, General 
Cartwright, and General Burgess, over the weekend, Secretary Gates said 
that it was the U.S. assessment that Iran was not yet nuclear capable. 
Last March, the CIA's Weapons Intelligence Nonproliferation and Arms 
Control Center (WINPAC) reported, ``Iran continues to develop a range 
of capabilities that could be applied to producing nuclear weapons, if 
a decision is made to do so.'' How confident is the administration that 
the Iranian regime will not make the decision to produce nuclear 
weapons once they have the capability?
    Secretary Flournoy. This answer is best given by the Intelligence 
Community (IC). I refer you to Lieutenant General Burgess's classified 
response.
    Secretary Burns. A U.N. Security Council resolution alone is 
unlikely to bring about the change in Iran's policies that we seek. 
But, in combination with the implementation of pressure across a wide 
array of Iranian interests, we believe this is the best way to bring 
about a shift in Iran's strategic calculus.
    General Cartwright. I will have to defer to Secretary Flournoy to 
provide a competent answer on this point.
    General Burgess. [Deleted.]

    30. Senator LeMieux. Secretary Flournoy, Secretary Burns, General 
Cartwright, and General Burgess, it seems the WINPAC report contradicts 
the 2007 National Intelligence Estimate assessing that Iran was ``less 
determined to develop nuclear weapons than we have been judging since 
2005.'' Do you agree?
    Secretary Flournoy. Iranian nuclear intentions remain an issue of 
paramount interest and concern to the intelligence and the policy 
communities. As new information emerges, and as the Iranian nuclear 
program evolves, we evaluate and reassess Tehran's ultimate intentions. 
At this time, we continue to assess that Iran is keeping open the 
option to develop nuclear weapons in part by developing various nuclear 
capabilities that bring it closer to being able to produce such 
weapons, should it choose to do so. We continue to judge that Iran's 
nuclear decisionmaking is guided by a cost-benefit approach, which 
offers the international community opportunities to influence Tehran. 
Iranian leaders undoubtedly consider Iran's security, prestige, and 
influence, as well as the international political and security 
environment, when making decisions about its nuclear program.
    Secretary Burns. I would refer you the IC for its assessment on the 
pace of Iran's nuclear weapons capabilities.
    General Cartwright. [Deleted.]
    General Burgess. [Deleted.]

    31. Senator LeMieux. Secretary Flournoy, Secretary Burns, General 
Cartwright, and General Burgess, given the ever-changing nature of our 
intelligence assessments on the Iranian program, how long can we be 
certain that Iran is not nuclear capable?
    Secretary Flournoy. The Iranian nuclear program and intentions 
remain issues of paramount interest and concern to the intelligence and 
the policy communities, and are matters that we continue to watch very 
closely. At this time, we continue to judge that Iran is not nuclear 
weapons capable. We assess that Iran is keeping open the option to 
develop nuclear weapons in part by developing various nuclear 
capabilities that bring it closer to being able to produce such 
weapons, should it choose to do so. As new information emerges and as 
the Iranian nuclear program evolves, we will continue to reevaluate and 
reassess Tehran's ultimate intentions and potential capabilities.
    Secretary Burns. Iran's extensive attempts over the past several 
years to engage in clandestine and undeclared nuclear activities have 
contributed greatly to the lack of international confidence in the 
nature of its nuclear program.
    I would refer you to the IC for any further assessments on the pace 
of Iran's nuclear capabilities.
    General Cartwright. Since this question directly concerns 
intelligence assessments I will have to defer to General Burgess to 
provide an answer.
    General Burgess. [Deleted.]

    32. Senator LeMieux. Secretary Flournoy, what would be the effect 
on American forces in the Middle East if Iran were successful in 
developing a nuclear bomb?
    Secretary Flournoy. The consequences of a nuclear-armed Iran would 
be highly destabilizing for the Middle East and could have significant 
implications for U.S. forces. However, no one can say with certainty 
how the situation might unfold. That is why we remain committed to 
preventing Iran from acquiring a nuclear weapon. A nuclear armed Iran 
could cause other states in the Middle East to pursue nuclear programs. 
It could also embolden Iran in its actions throughout the region most 
notably by expanding its support for proxies. A nuclear-armed Iran 
could also cause strategic instability that could eventually lead to a 
regional conflict. Such consequences would increase the requirements on 
the U.S. military, put our forces at greater risk, and potentially draw 
us into conflict.

    33. Senator LeMieux. Secretary Flournoy and Secretary Burns, is 
there a containment strategy for Iran in place and ready in the event 
they do acquire a nuclear weapon?
    Secretary Flournoy. As the President has stated, our policy is to 
prevent Iran from acquiring nuclear weapons. Steps we take to build the 
capabilities of our partners to counter Iranian proxies and build an 
integrated air and missile defense architecture to contain and deter 
Iranian aggression support our diplomatic efforts to prevent nuclear 
proliferation in Iran.
    Secretary Burns. As the President and other senior U.S. Government 
officials have stated repeatedly, we will not accept a nuclear-armed 
Iran and we are committed to a diplomatic resolution over the Iran 
nuclear challenge. We will continue to pursue the administration's 
dual-track approach--combining engagement with pressure--to reach a 
peaceful solution. But similar to the military, we--in coordination 
with the interagency--are constantly reviewing our foreign policy 
strategies and modifying them as appropriate.

                               SANCTIONS

    34. Senator LeMieux. Secretary Burns, the administration has 
frequently talked about meaningful sanctions. What types of sanctions 
do you think would be meaningful enough for Iran to stop pursuing its 
goal of developing nuclear weapons?
    Secretary Burns. The members of the P5+1 understand that we need to 
increase the pressure on Iran in order to bring it back to the 
negotiating table. While we cannot discuss the elements of a possible 
UNSCR, we can assure you that we are working intensively and very 
cooperatively with our partners in New York and in capitals on a broad 
range of proposals that we think will meet our common objective.
                                 ______
                                 
              Questions Submitted by Senator David Vitter

              SECURITY COUNCIL AND CONGRESSIONAL SANCTIONS

    35. Senator Vitter. Secretary Burns, the administration has 
seemingly put the Dodd-Shelby Comprehensive Iran Sanctions, 
Accountability, and Divestment Act (S. 2799) on hold in Congress, and 
instead is pursuing just the UNSC path. Presumably, a UNSC sanctions 
resolution will be weaker than what the United States could implement 
if they followed the direction of Congress. Therefore, I am afraid that 
the pursuit of a weaker sanctions resolution will simply delay stronger 
sanctions by the United States and will give the Iranians more time 
because both the process and the substance will further hold up action. 
If a UNSC resolution is ratified, do you think the United States should 
continue to aggressively pursue and implement S. 2799 that has been 
stalled in Congress?
    Secretary Burns. The administration shares Congress's concerns with 
Iran's nuclear program, and we ultimately share its goal of getting 
Iran to respect its international obligations and resolve concerns 
about the intent of its nuclear program. At this moment we are focused 
on creating a broad international coalition that can sharpen the 
choices for Iran through action at the U.N. Security Council. The most 
effective sanctions are those that are broadly enforced by the 
international community, which is why adopting a new resolution at the 
U.N. Security Council is so important.

    36. Senator Vitter. Secretary Burns, if a UNSC resolution is 
ratified, will the administration delay the implementation of a bill 
from Congress sanctioning additional Iranian activities?
    Secretary Burns. We believe that Congress and the administration 
share the objective of achieving Iran's compliance with U.N. Security 
Council resolutions and the NPT. Accordingly, we have been working with 
the appointed Senate and House conferees to craft an appropriate way to 
achieve these objectives as the legislation goes through conference. 
Our goals remain the same: to change Iran's decisionmaking on its 
nuclear program, to keep our international coalition together so that 
Iran sees clearly the unity it faces, and to maintain the President's 
flexibility to conduct foreign policy.

    37. Senator Vitter. Secretary Burns, is the United States willing 
to act alone or in a smaller group of countries on sanctions if a UNSC 
resolution is not passed?
    Secretary Burns. At this moment we are focused on creating a broad 
international coalition that can sharpen the choices for Iran through 
action at the U.N. Security Council. We believe we will need to 
pressure Iran on multiple fronts in order to convince it to address 
international concerns over its nuclear program, and that pressure is 
most effective when it is applied by as broad a coalition as possible. 
We believe a new UNSCR can serve as a platform for additional national 
and multinational measures, and we are consulting with a wide range of 
partners on ways we can tighten existing sanctions.

    38. Senator Vitter. Secretary Burns, how quickly can the United 
States act upon the possible voting down of a UNSC resolution?
    Secretary Burns. We are focused on creating a broad international 
coalition that can sharpen the choices for Iran through U.N. Security 
Council action. While diplomacy is obviously our first choice, we are 
also prudently preparing for the full range of contingencies on Iran, 
and the President has been clear that no options have been taken off 
the table.

    [Whereupon, at 12:35 p.m., the committee adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
